<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2020</title>
<body><pre>[Senate Hearing 116-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2020

                              ----------                              


                         WEDNESDAY, MAY 8, 2019

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 11:41 a.m. in room S-128, The 
Capitol, Hon. Richard Shelby (chairman) presiding.
    Present: Senators Shelby, Collins, Graham, Blunt, Moran, 
Hoeven, Boozman, Durbin, Leahy, Feinstein, Murray, Reed, Udall, 
Schatz, and Baldwin.

                         DEPARTMENT OF DEFENSE

                   Office of the Secretary of Defense

STATEMENT OF PATRICK M. SHANAHAN, ACTING SECRETARY
ACCOMPANIED BY DAVID NORQUIST, UNDER SECRETARY OF 
            DEFENSE (COMPTROLLER) AND CHIEF FINANCIAL OFFICER


             opening statement of senator richard c. shelby


    Senator Shelby. The committee will come to order.
    Today we have as panelists, the Honorable Patrick Shanahan, 
Acting Secretary of Defense, and General Joseph Dunford Jr., 
U.S. Marine Corps, Chairman of the Joint Chiefs of Staff.
    I will forego an opening statement. I know we have already 
held you up some today, and I will recognize Senator Durbin.
    [The statement follows:]
            Prepared Statement of Senator Richard C. Shelby
    The Subcommittee will come to order.
    I am pleased to welcome to the Committee, Acting Secretary of 
Defense, Patrick Shanahan and the Chairman of the Joint Chiefs of 
Staff, General Joseph Dunford, to review the budget request for the 
Department of Defense for fiscal year 2020.
    This Committee has already hosted hearings with the individual 
military services, and we have heard much about the implementation of 
the National Defense Strategy.
    It has been repeatedly emphasized that the Department is 
implementing a deliberate plan to address the changing, and in some 
ways new, threats and challenges that are posed to our national 
security, including from near peer adversaries.
    However, I remain convinced that we must maintain a rate of 
progress that will protect the comparative military advantages that 
have underpinned our global military strategy for years.
    The world continues to be a complex and dangerous place, as we are 
reminded when we read the news; whether it is the ongoing humanitarian 
crisis at our Southwest border, short range missile launches from North 
Korea, or the movement of the USS Abraham Lincoln carrier strike group 
towards the U.S. Central Command region in response to recent Iranian 
actions.
    I know that you both understand the magnitude of the challenges and 
I look forward to your testimony this morning as we as we consider the 
appropriate funding level for the Department in fiscal year 2020.
    I now turn to the Vice Chairman, Senator Durbin, for his opening 
remarks. Senator Durbin.

                 STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. I will follow the Chairman's example. 
Proceed, Mr. Chairman.
    [The statement follows:]
            Prepared Statement of Senator Richard J. Durbin
    Thank you, Mr. Chairman, for your leadership and for convening this 
hearing today. I welcome our witnesses. And General Dunford, as this is 
likely your last time testifying before the Committee, I want to say 
thank you for your dedicated service and congratulations on your 
upcoming retirement.
    There are many issues we can cover--including the need for a 
confirmed Defense Secretary and Deputy Defense Secretary--but I would 
like to focus on two: the continued use of DoD funding and personnel at 
our southern border and the proposal to create Space Force.
       dod priorities at risk due to border wall and deployments
    Secretary Shanahan, in testimony last week regarding DoD personnel 
deploying to the border you said, quote, ``We really need to get back 
to our primary missions and continue to generate readiness.'' I could 
not agree more.
    However, the Department seems to be accepting more involvement on 
the southwest border, not less.
    It recently granted a request from the Department of Homeland 
Security to allow its personnel to come into close contact with 
migrants in order to perform a number of duties normally performed by 
border agents, including driving vehicles, distributing food, and 
prosecuting migrants in court.
    The Department is also in the process of deciding which military 
construction projects it should cancel in order to build the 
President's wall.
    It appears that DoD's mission has become taking orders from DHS.
    This needs to stop. It risks readiness and jeopardizes other DoD 
priorities.
    Last week before the Subcommittee, we heard the Chief of Naval 
Operations testify that the Navy has $800 million in known ship 
maintenance needs and that the Commandant of the Marine Corps estimates 
needing $450 million this year to start work on rebuilding Camp 
Lejeune.
    Congress provides reprogramming authority to take care of new 
problems confronting our troops in the middle of any year, not to allow 
the Pentagon to end-run around the funding decisions of Congress.
    At a time the Department is asking for more flexibilities, I have 
serious concerns about abuse of the flexibilities you already enjoy.
                              space force
    My second issue that I'd like to raise is the Space Force. I am 
very concerned that we are heading toward spending billions of dollars 
on new bureaucracy that would be better spent on new satellites.
    Given all the important work going on right now in space, nobody 
has yet to explain why spending more to reshuffle organizational boxes 
makes more sense than spending more on satellites and rockets.
                               conclusion
    Thank you all again for being here today, and I look forward to a 
thorough discussion of these and other issues.

    Senator Shelby. Mr. Secretary and General Dunford, your 
written statements will be made part of the record. You proceed 
as you wish.

             SUMMARY STATEMENT OF HON. PATRICK M. SHANAHAN

    Secretary Shanahan. Sure. Chairman Shelby, Vice Chairman 
Durbin, distinguished members of the committee, thank you for 
this opportunity to testify in support of the President's 
budget request for fiscal year 2020.
    I am joined today by Chairman of the Joint Chiefs of Staff, 
General Joseph Dunford, and the Department's Comptroller and 
Chief Financial Officer, Mr. David Norquist.
    I must begin by recognizing General Dunford for his more 
than four decades of service. This morning likely marks his 
last congressional testimony before his retirement.
    General Dunford, on behalf of the entire Department of 
Defense, thank you for your gifted and selfless leadership. 
Simply put, our Nation is far safer because of your unwavering 
dedication, and it has been a privilege and an honor to serve 
alongside you.
    It has also been a great privilege and honor to serve 
alongside all of the men and women of the Department of 
Defense, and it was a pleasure to work with Secretary Mattis to 
craft the 2018 National Defense Strategy.
    Released in January of 2018, that strategy laid the 
foundation for restoring military readiness and modernizing our 
joint force for an era of great power competition.
    I now oversee the continued execution of that strategy, 
which is the undisputed driver of today's budget request.
    It was extremely helpful for the Department to receive 
authorization and appropriation bills on time and at the 
requested top line last year, which marked the first time in a 
decade a defense appropriations has been enacted by the 
beginning of the fiscal year.
    The strategy you supposed last year is the same strategy we 
are asking you to fund this year. The $750 billion top line for 
national defense enables DoD (Department of Defense) to 
maintain irregular warfares at core competency, yet prioritizes 
modernization and readiness to compete, deter, and win in a 
high-end fight of the future.
    This budget is critical for the continued execution of our 
strategy, and it reflects difficult but necessary decisions 
that align finite resources with our strategic priorities.
    To highlight some of those decisions, this is the largest 
research, development, testing, and evaluation budget in 70 
years. The budget includes double-digit increases to our 
investments in both space and cyber, modernization of our 
nuclear triad and missile defense capabilities, and the largest 
shipbuilding request in 20 years when adjusted for inflation.
    It also increases our total end strength by roughly 7,700 
servicemembers and provides a 3.1 percent pay increase to our 
military, the largest in a decade.
    Now to the specifics. The top line slates $718 billion for 
the Department of Defense. Of that total, the budget includes 
$545 billion for base funding, $164 billion for overseas 
contingency operations.
    Of the OCO (Overseas Contingency Operations) funds, $66 
billion will go to direct war and enduring requirements and $98 
billion to fund base requirements.
    To round out the numbers, $9.2 billion will fund emergency 
construction, including support for hurricane recovery and 
border barriers efforts. Here, I must note the Department 
appreciates this committee's support for hurricane recovery. 
Thank you for approving the $600 million reprogramming which 
will help start our recovery efforts.
    I asked for your support for a hurricane supplemental to 
address the remaining $1.8 billion in critical facilities, 
restoration, modernization, and sustainment; Maintenance and 
equipment replacement needs for fiscal year 2019, as well as 
the budget request of $3 billion in military construction and 
operation maintenance to continue recovery efforts in fiscal 
year 2020.
    As this committee fully understands, no enemy in the field 
has done more damage to our military's combat readiness in 
years past in sequestration and budget instability, and there 
is no question today our adversaries are not relenting.
    In short, we cannot implement the NDS (National Defense 
Strategy) at sequestration levels. Sequestration will not only 
halt our progress in rebuilding readiness, growing our force, 
modernizing for the future, and investing in critical emerging 
capabilities like AI (artificial intelligence), hypersonics, 
and directed energy.
    It would force us to cut end strength and critical 
modernization efforts that ensure we outpace our competitors.
    A continuing resolution would also hamstring the 
Department. Under a CR, we cannot start new initiatives, 
including increased investments in cyber. Nuclear modernization 
and missile defense, I just mentioned. Second, our funding 
would be in the wrong accounts; and third, we would lose buying 
power.
    We built this budget to implement our National Defense 
Strategy, and I look forward to working with you to ensure 
predictable funding so our military can remain the most lethal, 
adaptable, and resilient fighting force in the world.
    I appreciate the critical role Congress plays to ensure our 
warfighters can succeed on the battlefields of today and 
tomorrow, and I thank our servicemembers, their families, and 
all those in the Department of Defense for maintaining constant 
vigilance as they stand always ready to protect our freedoms.
    Thank you.
    [The statement follows:]
             Prepared Statement of Hon. Patrick M. Shanahan
    Chairman Shelby, Vice Chairman Durbin, distinguished members of the 
Committee, I appreciate the opportunity to testify in support of the 
President's budget request for fiscal year 2020. I am joined today by 
Chairman of the Joint Chiefs of Staff, General Joseph Dunford, and the 
Department's Comptroller and Chief Financial Officer, Mr. David 
Norquist.
    The size, scale, and importance of collaboration between Congress 
and the Department of Defense (DoD) shows we are united in our purpose 
to protect and defend our Nation. During my time as Deputy Secretary of 
Defense and now as Acting Secretary of Defense, I have engaged in 
substantive discussions with many members of this Committee. I look 
forward to continuing our engagements, in this hearing and beyond, with 
both long-serving and new members, as the Department drives results 
along our strategic priorities.
    We in DoD appreciate Congress's partnership in repeatedly 
demonstrating the bipartisan nature of defense. I thank Congress for 
voting to lift budgetary caps and providing sustained funding increases 
over the last 2 years, which have helped our military meet today's 
challenges while preparing for those of tomorrow. Members of this 
Committee, the entire Congress, and the American people can rest 
assured that DoD has efficiently and effectively invested your money. 
Thank you, in particular, for your support of the fiscal year 2019 2.6 
percent pay increase for our military personnel.
    Our responsibility is to remain responsible stewards of your trust 
and the American people's hard-earned tax dollars. DoD has accelerated 
necessary changes in how we develop, posture, and employ our Joint 
Force. We are taking a clear-eyed approach to the strategic environment 
in which we operate and marrying our past experiences to new ideas, 
driving progress and fostering innovation in the process.
    Our fiscal year 2020 budget reflects the President's vision for 
prioritizing the security, prosperity, and interests of the American 
people. It also reflects my vision for the future--one marked by a more 
lethal, results-oriented Department of Defense with the capabilities 
and capacity to ensure national security and implement our National 
Defense Strategy (NDS) at the speed of relevance. Today I look forward 
to discussing that vision and how it is reflected in DoD's posture and 
resourcing decisions.
                  the 2018 nds: an enduring framework
    To provide context for that discussion, I want to take us back in 
time: 2 years ago, our Department had brand new civilian leadership 
ready to drive results. With a military enduring the longest continuous 
duration of combat in American history, we contended with a host of 
challenges, including an increase in North Korean missile testing; an 
aggressive Iran; violent extremists in Iraq, Syria, and Afghanistan; 
and growing strategic competition with China and Russia. In addition, 
cyber and space emerged as contested, warfighting domains, further 
complicating an already complex security environment.
    Amidst these challenges, the release of our 2018 NDS last January 
provided the strategic unity DoD needed, with clear direction on 
restoring military readiness and modernizing the Joint Force to address 
great power competition.
    The 2018 NDS's unified framework enables a potent combination of 
teamwork, resources, and an unmatched network of allies and partners 
stepping up to shoulder their share of the burden for international 
security. The NDS also fosters alignment within the Department, the 
Interagency, industry, and Congress.
    More than 15 months after its release, I say with conviction: the 
NDS remains the most effective aligning mechanism for the Department. 
Its implementation is our most critical mission. Yet, strategy cannot 
be static; it must be constantly reevaluated. In February, my staff 
concluded a clear-eyed assessment of our NDS priorities and our 
progress in meeting them, highlighting our successes and making clear 
we still have more work to do. Most significantly, it reaffirmed that 
erosion of our competitive edge against China and Russia continues to 
be DoD's most pressing ``central problem.'' Our three primary lines of 
effort--increasing our military's lethality, strengthening our network 
of alliances and partnerships, and reforming DoD's business practices--
remain the most effective avenues for addressing this challenge.
    I thank Congress for its own evaluation via the NDS Commission. 
Having reviewed the findings of both our internal DoD assessment and of 
the Commission's report, I am confident we are aligned on the most 
critical matters. The few areas where we did not agree reflect the 
reality that finite resources require tough choices. DoD stands by 
these choices as necessary components of our strategic approach.
    As our Department has aligned behind our Strategy, our competitors 
have not been complacent. They have accelerated their own military 
modernization efforts and vigorously pursued the development and 
fielding of advanced technologies with a clear intent: create an 
asymmetric military advantage against us, our allies, and our partners.
                  priority threats & policy objectives
                            the china threat
    As this Committee recognizes, the Chinese Communist Party exports 
coercive influence far beyond its borders while internally wielding 
authoritarian governance over its own people. To achieve hegemony in 
the Indo-Pacific in the near term and shape a world consistent with its 
authoritarian model, China is: (1) aggressively modernizing its 
military, (2) systematically stealing science and technology and 
seeking military advantage through a strategy of Military-Civil fusion; 
(3) undermining the rules-based international order, which has 
benefited all countries, including China, and (4) building an 
international network of coercion to further its economic and security 
objectives.
Military Modernization
    The trajectory of China's military spending is clear. In just 20 
years, China's official defense budget soared from roughly $20 billion 
in 1998 to $170 billion in 2018, with actual spending even higher. In 
March, China announced a projected 7.5 percent increase in defense 
spending in 2019. China devotes these funds to aggressive military 
modernization and advanced weaponry development, from nuclear and 
missile capabilities to space and cyber. Accounting for purchasing 
power and the significant portion of our military budget going to pay 
and benefits, today, China's defense spending approaches that of the 
United States.
    China has made investments specifically intended to offset U.S. 
advantages, including robust anti-access/area-denial (A2/AD) networks, 
more lethal forces, and new strategic capabilities. If deployed to 
overwhelm U.S. or allied combat power at initial stages of a conflict, 
these capabilities could seek to achieve a ``fait accompli'' that would 
make reversing Chinese gains more difficult, militarily and 
politically. Implementation of our Strategy ensures we have the 
capabilities, posture, and employment of forces so this never comes to 
pass.
    On the nuclear front, China is developing long-range bomber 
capabilities that, if successful, would make it one of only three 
nations in the world to possess a nuclear triad. In addition, China is 
building up its inventory of missiles, focusing on those intended to 
circumvent U.S. and allied defenses and deny the United States critical 
military access to the Indo-Pacific. Within the past 5 years alone, 
China has successfully tested hypersonic cruise and boost glide weapons 
concepts for these purposes.
    In 2018, China conducted more space launches than any other nation. 
In choosing to develop counterspace and dual-use space capabilities and 
enhance space-based intelligence, surveillance and reconnaissance, 
China has demonstrated its ability to weaponize space, if desired. We, 
in turn, cannot ignore China's ability to target U.S. and allied space 
capabilities. We also cannot ignore China's ambitions in the cyber 
domain, which it recognizes as the battlefield's ``nerve center.'' With 
all People's Liberation Army (PLA) cyber operations coordinated under 
one roof, China can operate in this contested domain without 
bureaucratic red tape to slow it down.
Technology Theft
    The rate at which China is systematically stealing U.S. and allied 
technology for its own military gain is staggering. Reversing this 
dangerous trend--one which could impact our troops on the battlefield--
means acknowledging reality: every Chinese company is at risk of being 
either a witting or unwitting accomplice in China's state-sponsored 
theft of other nations' military and civilian technology. To quote 
China's own cybersecurity law, private companies are required to 
``provide technical support and assistance to public security organs 
and national security organs,'' whether they want to or not. Any U.S. 
or allied company that works with Chinese companies, without proper 
safeguards, thus opens itself to theft as well.
    To grasp the pervasiveness of the problem, look to the Federal 
Bureau of Investigation (FBI). There are open Chinese economic 
espionage or technology theft cases in nearly all FBI field offices. 
For years, the U.S. Department of Justice (DoJ) has indicted members of 
the Chinese state and military for stealing U.S. technology. In 
January, DoJ recognized China's escalating tactics and took a step 
further, indicting executives of Chinese telecommunications company 
Huawei for scheming to steal T-Mobile's trade secrets.
    Huawei exemplifies the Chinese Communist Party's systemic, 
organized, and state-driven approach to achieve global leadership in 
advanced technology. With initiatives like the Digital Silk Road, Made 
in China 2025, and Thousand Talents Program in play, which spur 
companies and individuals to carry out its bidding, China aims to steal 
its way to a China-controlled global technological infrastructure, 
including a 5G network. China pursues large-scale acquisition of 
foreign companies in sensitive sectors and pressures companies into 
transferring technology. Finally, China's Military-Civil Fusion 
strategy seeks to translate cutting-edge technology into advanced 
weapons.
    Here I must note: some U.S. companies have voiced ethical qualms 
about working with DoD to develop advanced technology, in some cases 
even terminating relationships--often while continuing to work with 
China. DoD takes ethical considerations extremely seriously when 
researching and developing emerging technologies, and our efforts 
improve performance and allow human beings to make better decisions. 
China, on the other hand, repeatedly demonstrates little regard for 
international ethical rules and norms.
    China's approach to technological advancement matters for our 
military advantage, and its ambitions threaten the security of critical 
U.S. capabilities and technological infrastructure, and thus our 
military operations, safety, and prosperity.
    Let me be perfectly clear: the United States does not oppose 
competition, as long as it takes place on a fair and level playing 
field. However, we cannot accept the unfair and illegal actions of 
others who intend to tilt the playing field through predatory economics 
and underhanded tactics.
Undermining the Rules-based International Order
    We all know China's population is comparable to the Americas and 
Western Europe's combined. But China is also geographically situated 
within arm's reach of 2.4 billion people, roughly a third of the 
earth's population, across Southeast Asia, Japan, and India. Make no 
mistake--China is extending that reach by increasing its overt military 
and coercive activities vis-a-vis its neighbors.
    China's increasingly provocative behavior in the Indo-Pacific, 
particularly the South China Sea (SCS), should concern us all. Between 
2013 and 2018, China increased its air and sea incursions into the SCS 
twelvefold. Within those 5 years, it also increased deployments of 
offensive and defensive weapons systems to the SCS by the same order of 
magnitude.
    China's land reclamation and militarization far exceed that of 
other claimants combined in the South China Sea. Between 2013 and 2015 
alone, China created more than 3,200 acres in the SCS, building 
features within its self-proclaimed `nine dash line'--a claim the 
Permanent Court of Arbitration in The Hague ruled in 2016 has no legal 
basis. These constructed features are almost four times the size of 
Central Park in New York City and roughly five times the size of this 
Capitol Hill neighborhood. Imagine walking from this hearing room to 
the Marine Barracks at 8th and I over what used to be part of the 
Pacific Ocean.
    Now also picture Chinese interference in freedom of navigation. Yet 
for this, we do not have to use our imaginations. China habitually 
threatens this freedom, using both conventional military force 
projection and ``gray zone'' or irregular warfare activities. For 
example, in September, Chinese military vessels came dangerously close 
to the USS Decatur off the coast of the Spratly Islands. China's force 
projection inside and outside the SCS disrespects and undermines our 
rules-based international order and threatens regional stability and 
security.
International Network of Coercion
    Lastly, China is diligently building an international network of 
coercion through predatory economics to expand its sphere of influence. 
Sovereign nations around the globe are discovering the hard way that 
China's economic ``friendship'' via One Belt, One Road can come at a 
steep cost when promises of investment go unfulfilled and international 
standards and safeguards are ignored.
    Let us look at just a few examples. Saddled with predatory Chinese 
loans, Sri Lanka granted China a 99-year lease and seventy percent 
stake in its deep-water port. The Maldives owes China roughly $1.5 
billion in debt--about thirty percent of its GDP--for construction 
costs. Pakistan will owe China at least $10 billion in debt for the 
construction of Gwadar Port and other projects.
    In Africa, Djibouti owes China more than eighty percent of its GDP 
and, in 2017, became host to China's first overseas military base. In 
Latin America, Ecuador agreed to sell eighty to ninety percent of its 
exportable crude oil to China through 2024 in exchange for $6.5 billion 
in Chinese loans. And after leasing land tax-free to China for 50 
years, Argentina is denied access and oversight to a Chinese satellite 
tracking station on its sovereign territory, unwittingly allowing the 
facility's use for military purposes.
    The list of nations entrapped by China's predatory debt tactics 
runs long, and some have started to push back. Yet, under the guise of 
good-intentioned development, Beijing continues to leverage debt for 
economic or political concessions--a practice we expect will intensify 
as more nations prove unable to pay China back.
               policy objectives to meet the china threat
    Left unaddressed, China's success in unfairly tilting the playing 
field in its favor has serious implications for our own military 
advantage. While we do not seek to contain China, we expect China to 
play by the rules, meeting the same standards to which the United 
States and all other nations are held. We will cooperate with China 
wherever and whenever possible, but we also stand ready to compete 
where we must to ensure our military's competitive advantage for 
decades to come.
    As German Minister of Defense Ursula von der Leyen said last month 
in Munich, ``our partnerships are not built on domination. They do not 
create political and economic dependencies.'' Our pursuit of many belts 
and many roads creates alternative options for nations unwilling to 
succumb to China's increasingly coercive methods.
    As such, DoD's priority policy objectives are to outpace Chinese 
military modernization to deter future conflict, or win decisively 
should conflict occur; protect U.S. and partner research and 
development of advanced technology from rampant Chinese theft, and; 
maintain a free and open Indo-Pacific built on strong alliances and 
growing partnerships.
                           the russia threat
    China is not the only nation attempting to undermine U.S. interests 
and security to alter the international order in its favor. Despite 
having an economy smaller than that of the State of Texas, Russia, 
against the economic odds, seeks a return to great power status. Though 
it has not reached that goal, Russia is playing a weak strategic hand 
well by: (1) aggressively modernizing its military; (2) projecting 
military might beyond its borders; (3) intimidating its neighbors, 
including exploiting their energy dependence for strategic gain, and; 
(4) undermining other nations' sovereign democratic processes.
Military Modernization
    Russia is aggressively modernizing its military to gain an 
asymmetric advantage over the United States and NATO. Russia plans to 
spend $28 billion to upgrade and modernize each leg of its strategic 
nuclear triad by 2020, and has already spent more than 10 percent of 
its total military budget every year since 2011 on nuclear 
modernization efforts. In March 2018, Russian President Vladimir Putin 
announced Russia's development of six new strategic weapons systems--
five of which are nuclear capable--including hypersonic systems able to 
maneuver at ten times the speed of sound and intended to circumvent 
U.S. missile defense capabilities. One of those hypersonic systems is 
expected to enter service this year.
    In addition to modernizing its strategic weapons systems and 
delivery platforms, including its submarine fleet, Russia is building a 
large, diverse, and modern set of non-strategic systems, including the 
dual-capable SSC-8 cruise missile, which clearly violates the 
Intermediate-Range Nuclear Forces (INF) Treaty. Every NATO Ally agrees 
on this point and supports our decision to withdraw from the INF Treaty 
in response to Russia's material breach. A treaty not followed by all 
parties cannot be an example of effective arms control. For any who 
doubt U.S. efforts to bring Russia back into compliance with the 
Treaty, I would emphasize: we held over thirty meetings with the 
Russians at every level of government for more than 5 years--across two 
administrations, one Democrat and one Republican.
    Moving to space, Russian systems are intended to disrupt, degrade, 
and damage U.S. satellites in orbit. There is no question: Russia 
treats space as a warfighting domain to gain military advantage over 
the United States. Moscow has already fielded ground-based directed 
energy laser weapons and is developing air-based systems and additional 
novel counterspace capabilities to target our space-based missile 
defense sensors. Russia now has the third largest collection of 
operational satellites in the world, behind only us and China.
Projecting Military Power
    On top of modernizing its military capabilities, Russia also 
projects its military might around the globe. In 2018, Russia conducted 
its largest strategic military exercise since 1981. Today Moscow 
deploys a variety of aviation and naval missions to the Pacific, the 
Arctic, the Mediterranean Sea, the Indian Ocean, and the western 
hemisphere. In December, Russia sent bombers to Venezuela, conducted 
several patrols in the Caribbean, and has since deployed military 
forces to Venezuela to support the failed Maduro regime. And in the 
Middle East, Russia has continued support for Syria's murderous regime 
with expeditionary operations and long-range strikes. These examples 
make clear Russia's ambitions for a more globally dominant military 
footprint.
Strategy of Intimidation
    In addition to projecting military power far beyond its borders, 
over the last decade Russia has attempted to incrementally push 
geographic boundaries with its neighbors. From its 2008 invasion and 
continued occupation of twenty percent of Georgian territory to its 
2014 invasion and continued occupation of Crimea, Russia demonstrates 
blatant disregard for other nations' sovereignty. Lest we forget, 
Russia still holds twenty-four Ukrainian crewmembers it captured last 
November, when it attacked three Ukrainian ships near the Sea of Azov 
in violation of international law.
    Russia's escalating intimidation efforts are amplified by irregular 
warfare and ``gray zone'' tactics intended to sow confusion, conceal 
military movement, and limit accountability. By deploying mercenaries--
like those of the Wagner Group to places like Crimea, Syria, Libya, and 
now Venezuela--instead of uniformed soldiers, Russia hopes its use of 
proxies will further muddy the already murky waters of conflict and 
limit international response to its actions. Russia's attempts at 
deception are not fooling anyone.
Undermining Sovereign Processes
    Russia's duplicity also extends to the cyber domain, where it 
propagates coordinated disinformation campaigns to undermine sovereign 
democratic processes. In April 2018, Facebook estimated that roughly 
one million users followed a page operated by Russia's Internet 
Research Agency (IRA). Last year, Twitter identified more than 3,800 
IRA accounts that had generated millions of tweets over a nine-year 
span. These accounts are intended to foster divisiveness in the West 
and undermine trust in democratic institutions.
    Russian efforts extend beyond their bots and Internet trolls--they 
conduct deliberate cyber operations against the United States and other 
sovereign nations. To name a few examples of Russian handiwork: it has 
targeted U.S. Government and critical systems to allow damage or 
disruption of U.S. civilian or military infrastructure during a crisis; 
launched distributed denial of service attacks against NATO, Ukraine, 
and German government websites, and; released a potent cyber virus that 
caused billions of dollars in damage around the world.
    In response, we are not complacent. DoD is getting after the 
problem, and we are achieving results, most notably in our recent 
successful efforts to stymie Russian disruption of our midterm 
elections. We are determining what other actions DoD and our 
Interagency partners must take to ensure the continued safety and 
integrity of our democratic institutions.
              policy objectives to meet the russia threat
    As these examples make clear, Russia is intent on undermining U.S. 
military advantage to alter the existing balance of power in its favor. 
In order to thwart Russia's efforts to regain peer competitor status, 
DoD is focused on modernizing our military to enhance deterrence and 
prevent future conflict, while bolstering burden sharing to ensure the 
NATO Alliance remains credible and capable against Russian aggression.
    We are also working diligently with the Interagency, our allies, 
and our partners to deter Russia's physical intimidation and contest 
its cyber aggression, information warfare, and ``gray zone'' tactics in 
Syria and beyond. That includes ensuring Russia does not control the 
international narrative, casting its malign intentions and actions 
under a cloak of subterfuge, disinformation, and malign propaganda. We 
are strengthening our ability to counter this deliberate deceit, both 
on our own and with our allies and partners.
                  regional threats: north korea & iran
    As DoD modernizes to win competition with China and Russia, we also 
remain alert to regional threats, like those posed by the Iranian and 
North Korean regimes.
    While President Trump and our diplomats negotiate for the 
denuclearization of North Korea, its collection of nuclear weapons and 
ballistic missiles continues to pose a threat to the U.S. Homeland, as 
well as our allies.
    Iran, for its part, relentlessly seeks to expand its malign 
influence across the Middle East and beyond. By providing advanced 
conventional weapons and military support to the Syrian regime and 
Houthi rebels in Yemen, and offering support and financing to terrorist 
groups like Lebanese Hizballah, Iran is entrenching and proliferating 
its clout across the region. In addition, Iran demonstrates reckless 
behavior in the maritime domain. Iranian leaders repeatedly threaten to 
close the Strait of Hormuz--the gateway for almost a third of all 
global sea-traded oil--to international shipping and allow Iranian-
backed Houthis to conduct attacks on international shipping in the Bab 
al-Mandab.
    Iran has also increased funding for its cyber efforts twelvefold 
under President Rouhani, as well as increased espionage and targeting 
of U.S. Government and commercial entities since withdrawing from the 
Joint Comprehensive Plan of Action. DoD also remains closely attuned to 
the threat posed by Iran's ballistic missile capabilities and remains 
vigilant about the potential that Tehran may one day decide to pursue a 
nuclear weapon.
               policy objectives to meet regional threats
    In support of the ongoing negotiations for the denuclearization of 
North Korea, DoD aims to ensure our diplomats continue to speak from a 
position of strength. Our alliances in the region remain ironclad, 
including with the Republic of Korea and Japan. Together we deter North 
Korean aggression and maintain our ability to protect the Homeland and 
win decisively should conflict ever occur.
    To counter Iran's destabilizing influence across the Middle East, 
DoD seeks to deepen and expand alliances in the region and strengthen 
local partners' capabilities and capacity to manage and counteract 
threats. We also seek to ensure freedom of navigation for all, bolster 
resilience against destructive cyber-attacks, and prevent weapons of 
mass destruction (WMD) from falling into the hands of irresponsible 
actors.
                          the terrorism threat
    Working by, with, and through an expansive network of international 
partners, we have made meaningful progress in thwarting terrorist 
designs against the U.S. Homeland and interests. Yet we do not discount 
the threats that continue to emanate from violent extremist 
organizations (VEOs), as they seek to conduct and inspire attacks, gain 
legitimacy by exerting control over territory, enjoy safe haven in 
under-governed countries, obtain access to WMD material, and 
proliferate their ideology to others across the globe.
    Taking a step back from our hard-won successes against the Islamic 
State in Iraq and Syria (ISIS), we also recognize the global fight 
against radical Islamist terrorists is not over. From the 1980s to now, 
the number of nations, either unwittingly or willingly, providing safe 
haven to VEOs has increased eleven-fold. Today, radical Islamist 
terrorist movements are organized in more than two dozen countries, and 
the globe must contend with more than one hundred VEO-directed, 
enabled, or inspired attacks every year. VEOs continue to take 
advantage of instability in places like Yemen, Syria, Libya, Iraq, the 
Maghreb, Lake Chad, Somalia, and Afghanistan, preying on the conflict-
ridden to grow their influence.
             policy objectives to meet the terrorism threat
    Recognizing terrorism as a global threat, we must pursue global 
solutions that utilize the unique capabilities and capacities of our 
allies and partners, in addition to our own. Military might alone will 
not eliminate terrorist ideology or the threat of future terrorist 
attacks.
    However, we can and are reducing the likelihood of an attack on our 
Homeland, our troops, and our interests by contributing to a whole-of-
government and coalition approach. Together, we are removing 
terrorists' ability to control and hold territory; bolstering the 
internal security and stable governance of vulnerable states; ensuring 
the proper safeguarding of WMD material from terrorist hands; checking 
their ability to exploit emerging technologies, including unmanned 
systems; targeting VEO financial networks and countering terrorist 
ideology online to limit its spread to the greatest extent possible; 
and sharing intelligence to limit the risk of attack around the world.
                       what dod is doing about it
    To meet our policy objectives, DoD cannot simply keep pace with our 
competitors as they increase their regional and global influence, grow 
their military capabilities, and develop and field advanced 
technologies. We must--and will--significantly outpace them.
    We have made tough choices that align finite resources with our 
strategic priorities, reducing some day-to-day operational requirements 
now so we are prepared to deter, compete, and win against strategic 
competitors in the future. Our work bringing the NDS to life is far 
from over, but we are demonstrating clear progress along our three 
lines of effort.
Increasing Lethality
    In order to protect the Homeland and remain the most lethal 
military in the world, we have begun a paradigm shift towards a more 
balanced, distributed, survivable, and cost-imposing Joint Force. In 
2018, we closely linked our combatant commands' operations to policy 
objectives and our Service plans to capability and capacity, with a 
focus on execution and performance. We are adjusting our posture, 
increasing lethality, improving operational readiness, and beginning to 
modernize and innovate at scale. These efforts allow us to better 
exploit adversary weakness, project power in contested environments, 
and expand our combat credible forward presence.
    We have shifted our posture in key regions, taking initial steps to 
economize for sustainable missions in the Middle East and South Asia to 
prepare for the possible high-end fight of the future. In doing so, we 
maintain strategic predictability and implement operational 
unpredictability via the Dynamic Force Employment (DFE) model. This 
approach provides assurance to our allies and partners, while keeping 
our competitors and adversaries on their toes. We demonstrated DFE in 
action last year, when one of our carrier strike groups returned early 
from deployment unannounced and quickly redeployed to the North 
Atlantic--the first carrier strike group to conduct operations there 
since the 1990s.
    We encourage and welcome all individuals who can meet our exacting 
requirements to join our military's ranks. A key element of 
strengthening our military and increasing lethality is ensuring our 
warfighters achieve established physical, mental, and security vetting 
standards. War is unforgiving, and our mission demands we remain a 
standards-based organization. In upholding systematically applied 
standards, we ensure the readiness of our Joint Force and cohesion of 
our units. One of those standards is deployability. Since June, we have 
lowered the percentage of non-deployable Service Members by one 
percent--that means roughly 20,000 fewer non-deployable Service Members 
today than 10 months ago.
    DoD has also worked diligently to ensure our personnel have the 
capacity, training, and capabilities they need to achieve results. Last 
year, we accelerated delivery of more than 14,000 munitions and 
precision guidance kits to our warfighters, turned the corner on 
replenishing critical munitions stockpiles, and made strides to rapidly 
deploy cutting edge equipment to the warfighter. Our Close Combat 
Lethality Task Force continues to strengthen our infantry's lethality, 
survivability, resiliency, and readiness for close combat. Four out of 
five U.S. combat deaths occur in our infantry. Therefore, it is a 
strategic imperative to ensure those who confront war's grimmest 
realities never enter into a fair fight.
    This work on personnel and munitions readiness feeds into 
complementary efforts to increase equipment readiness. In October 2018, 
we set an eighty percent readiness target for mission critical aviation 
platforms. In just a few months, almost every type, model, and series 
of aircraft targeted by that memorandum has demonstrated progress. This 
year, we will establish similarly ambitious readiness targets across 
the DoD enterprise. In addition, our Services have made impactful 
readiness gains. As one example, the Air Force's operational squadrons 
are 23 percent more ready today than in 2017, and we will have 25 
percent more pilots able to carry out missions in fiscal year 2019 than 
in fiscal year 2016.
    On modernization, we remain committed to a safe, secure, and 
effective nuclear deterrent. Nuclear deterrence has kept the peace over 
the last seventy years, and its importance has been reaffirmed by every 
Congress and every president since Harry Truman. Last year, DoD 
released our Nuclear Posture Review (NPR), which details the need for 
modern and tailored nuclear capabilities and capacity that meet the 
realities of our times. We are moving out on those efforts. With fiscal 
year 2019 funding, we are recapitalizing and modernizing our aging 
legacy forces, including our nuclear command, control, and 
communications (NC3), while pursuing prudent, modest adjustments to our 
arsenal, which will increase the flexibility of our response options.
    Here it is worth re-stating--Russia is aggressively developing and 
modernizing a suite of strategic and non-strategic nuclear weapons. Not 
only does this add urgency to the modernization of our legacy forces, 
it underscores the importance of the supplemental capabilities called 
for in last year's NPR. Both the low-yield submarine-launched ballistic 
missile (SLBM) and the sea-launched cruise missile (SLCM) close what we 
believe to be troubling gaps in regional deterrence. These are not 
redundant capabilities. The low-yield SLBM, deployed in small numbers, 
will provide a highly tailored response to specific developments in 
Russia's forces and doctrine that may lead Russia to mistakenly believe 
it could potentially use a small number of low-yield nuclear weapons 
without risking a U.S. military response. A nuclear SLCM will provide a 
similar capability in response to serious developments and trends in 
Russia's nonstrategic nuclear forces. These supplemental capabilities 
enhance deterrence and stability.
    Turning to emerging technology fields, DoD has identified ten key 
areas: hypersonics; fully networked C3; directed energy; cyber; space; 
quantum science; artificial intelligence (AI)/machine learning; 
microelectronics; autonomy; and biotechnology.
    We have invested in basic research, rapid prototyping, and 
experimentation to mature technology that can be used at scale. We are 
also updating our warfighting doctrine as the character of warfare 
changes. Take AI for example--competitors are investing heavily in this 
field, redefining the future of warfare. Last year, DoD established the 
Joint AI Center (JAIC), and we released our AI Strategy in February of 
this year. These efforts accelerate DoD's delivery and adoption of AI 
at the speed of relevance, while attracting and cultivating the best 
global talent.
    In pursuit of stronger missile defense, DoD released our Missile 
Defense Review (MDR) in January, which recognizes the accelerating 
proliferation of advanced offensive missile capabilities around the 
world. The MDR articulates a comprehensive approach that combines 
deterrence, active and passive missile defense, and attack operations. 
We continue to maintain ground- and sea-based missile defenses while 
also developing new capabilities to counter new threats.
    As the MDR illustrates, our military is not constrained by earth's 
geography. We are taking steps to secure unfettered access to and 
freedom to operate in space, in accordance with our international 
agreements and obligations. Reforming the organization of the military 
space enterprise is fundamental for protecting our roughly $20 trillion 
economy and our position as the world's strongest military. In March, 
we submitted a legislative proposal to Congress requesting 
authorization and associated appropriations for a U.S. Space Force. If 
approved, the Force would transform our approach to space, increasing 
our responsiveness in this warfighting domain. Establishing a sixth 
branch with dedicated military leadership will unify, focus, and 
accelerate the development of space doctrine, capabilities, and 
expertise to outpace future threats, institutionalize advocacy of space 
priorities, and further build space warfighting culture. I ask for your 
support of our proposal, so we can move out in this critical domain.
    We recognize restoring military readiness, modernizing our Joint 
Force, and increasing lethality will not happen overnight, but as the 
above examples demonstrate, we are making meaningful progress.
Strengthening Alliances and Partnerships
    Beyond DoD's efforts to improve readiness and lethality, we are 
expanding collaboration and cooperation outside the Department. DoD's 
participation in combined military exercises has increased by seventeen 
percent in the last 2 years, and our Foreign Military Sales have 
increased by more than sixty-five percent in the last 3 years. Across 
the globe, DoD has leveraged opportunities to expand and deepen our 
already unmatched network of allies and partners, while making real 
progress on burden sharing for international security.
    Starting in the Indo-Pacific, our priority theater, we continue to 
pursue many belts and many roads by keeping our decades-old alliances 
strong and fostering growing partnerships. In all our actions, we 
demonstrate our commitment to a free and open region, marked by respect 
for the sovereignty and territorial integrity of all nations, big and 
small.
    We are fortifying our bedrock alliances with Australia, Japan, the 
Republic of Korea, the Philippines, and Thailand while growing key 
partnerships across the Indo-Pacific. It is worth noting here that four 
out of the five nations in our Five Eyes intelligence-sharing network 
are also Pacific nations, further emphasizing the region's importance.
    In 2018, the United States took historic strides with two key 
partners in particular, Vietnam and India. Our Navy conducted the first 
U.S. aircraft carrier visit to Vietnam since the Vietnam War, and we 
participated in the inaugural U.S.-India 2+2 Strategic Dialogue in New 
Delhi, showing growing trust between the world's oldest and largest 
democracies.
    While our diplomats chart a path to the denuclearization of North 
Korea, DoD continues to enforce United Nations Security Council 
resolution sanctions against North Korean ship-to-ship transfers, 
alongside allies and partners. We have also improved integration of our 
missile defense assets on the Korean Peninsula to better protect U.S. 
Forces and allies.
    In July 2018, we conducted the largest naval exercise in the world, 
the Rim of the Pacific or RIMPAC, alongside twenty-five other nations. 
That and our Southeast Asia Maritime Security Initiative have boosted 
interoperability and increased our allies and partners' ability to 
conduct maritime security and awareness operations on their own. Our 
efforts across the region have enabled our allies and partners to take 
a tougher stand against Chinese aggression in international waters. For 
example, this past year France, the United Kingdom, Japan, Canada, 
Australia, and New Zealand all increased their presence in the East and 
South China Seas, reiterating our collective stance to fly, sail, and 
operate wherever international law allows.
    In Europe, the United States is fortifying relationships, realizing 
burden sharing gains, and developing a more lethal, combined 
capability. This year, NATO--the most successful Alliance in history--
marks its seventieth anniversary as the bedrock of transatlantic 
security. NATO is poised to bolster deterrence through larger and more 
frequent exercises, mobility and infrastructure improvements, a 
revamped command structure, and increased force presence in territories 
most vulnerable to Russian aggression. We are rapidly pursuing our 
``Four Thirties Readiness Initiative'' by 2020: thirty mechanized 
battalions, thirty air squadrons, and thirty combat vessels ready to 
fight within thirty days or less.
    Over the last 2 years, NATO has made significant burden sharing 
progress, both financially and operationally. Since 2017, our NATO 
Allies have increased their defense spending by $41 billion. The 9 
percent increase from 2016-2018 represents the largest in a quarter 
century. By 2020, NATO projects Allies will increase defense spending 
by $100 billion. These are impressive numbers. Yet NATO contributions 
do not all boil down to simple dollar amounts. The Alliance continues 
to provide valuable manpower, specialized capabilities, and territory 
that no other partnership in the world can match.
    I now move to the impactful work we are doing by, with, and through 
our allies and partners across the Middle East and South Asia.
    In Syria and Iraq, the United States, as part of the seventy-nine-
member Defeat-ISIS Coalition, and our local partners have liberated 
more than thirty towns and cities from ISIS control since January 
2017--that's all of the territory ISIS once held.
    As we look ahead in Syria, we will continue to stand with those who 
fought and continue to fight alongside our Coalition, address Turkey's 
security concerns along Syria's northeast border, maintain the global 
Defeat-ISIS Coalition, and set conditions for continuing U.S. 
counterterrorism operations in the region. We fully support the 
Government of Iraq in its fight against terrorism and will continue to 
enable the Iraqi Security Forces' progress in securing liberated areas 
and thwarting ISIS attempts to mount a clandestine insurgency.
    In Afghanistan, we are executing President Trump's South Asia 
Strategy, R4+S (regionalize, realign, reinforce, reconcile, and 
sustain). In applying military pressure on the Taliban, we support 
Ambassador Zalmay Khalilzad and Secretary Pompeo's ongoing 
negotiations, which are Afghanistan's first chance for real peace in 40 
years. We are also applying maximum pressure on ISIS-Khorasan (ISIS-K) 
and other terrorist groups in Afghanistan, to stymie any threats to the 
U.S. Homeland.
    Since 2016, our allies and partners have stepped up to create 
necessary conditions for negotiations. Afghan forces now lead one 
hundred percent of conventional ground missions. U.S. and coalition 
personnel perform train, advise, and assist roles, and the United 
States provides combat enablers to supplement Afghan capability gaps. 
In addition, U.S. and Afghan special forces regularly partner to 
conduct strikes against insurgents and terrorists. In 2018, 
international partners agreed to extend their roughly $1 billion in 
annual financial sustainment of Afghan forces through 2024. NATO's 
fulfillment of requirements in Afghanistan has increased more than 
fourteen percent since the introduction of President Trump's South Asia 
Strategy, its highest level in the Mission's history. Since 2016, the 
number of non-U.S. Coalition troops to NATO's Resolute Support Mission 
has increased by more than thirty-five percent, and two new countries, 
Qatar and the United Arab Emirates, are formalizing their status as 
operational partners.
    Defeating Al Qa'ida in the Arabian Peninsula (AQAP) and ISIS 
remains the United States' top national security interest in Yemen. At 
the same time, we fully support UN Special Envoy Martin Griffiths's 
efforts to bring all relevant parties of the civil war to the 
negotiating table. Though not easy, these is the necessary first step 
on the path to lasting peace.
    In Africa, we are helping partners build their security forces' 
capacity to counter terrorist and other transnational threats, 
bolstering relationships to ensure U.S. influence and access against 
great power competition, enhancing our ability to conduct crisis 
response, and supporting whole-of-government efforts to advance 
stability and prosperity.
    The last stop in our abbreviated walk around the world is closer to 
home--to our allies and partners in the western hemisphere and our 
efforts to protect our southern border. Over the last year, we have 
fostered strong military-to-military ties with our Canadian and Mexican 
neighbors, while bolstering relationships with Brazil, Argentina, 
Colombia, and Chile. We appreciate and applaud these nations' 
contributions to international security, demonstrated notably last year 
when Chile served as the Combined Forces Maritime Component Commander 
at RIMPAC--the first time in the exercise's history a non-English 
speaking nation has done so.
    As we continue to monitor the situation in Venezuela, we are 
working closely with the Department of State, U.S. Agency for 
International Development, and regional partners to provide 
humanitarian assistance, while maintaining our posture to protect our 
national interests and citizens abroad.
    On the southern border--in February, I visited the El Paso area to 
assess the security situation and DoD's role in supporting our 
Department of Homeland Security partners.
    As these myriad examples illustrate, our thriving, global 
constellation of alliances and partnerships provides an asymmetric 
advantage no competitor or adversary can match. We take that advantage 
seriously, and we continue to foster its growth at every opportunity.
Implementing Reform
    Let me now turn inward--to reform of our internal business 
practices. Over the last year, we have made marked improvements to our 
fiscal transparency, instituting a wide range of reform initiatives 
that bolster efficiency, effectiveness, and performance.
    We have focused reform in key areas, including healthcare, contract 
management, information technology (IT), acquisition, civilian resource 
management, and financial management. Let me provide a brief overview 
of our progress so far. Over the course of fiscal year 2017 and fiscal 
year 2018, we have saved $4.7 billion from reform across our 
headquarters' activities--a down payment on more to come.
    On healthcare, we realized savings of almost $519 million in 
TRICARE reform in fiscal year 2018, with $3.4 billion in savings 
planned through fiscal year 2021. Our entire Fourth Estate has now 
participated in contract service requirement reviews to eliminate 
unnecessary contracts, resulting in $492 million in programmed savings.
    Within the IT field, we modernized our defense travel system, 
trimming our regulation by almost 1,000 pages. The reform allows for 
better industry competition and has saved nearly $160 million to date. 
Within acquisition reform, our Services saved more than $550 million in 
fiscal year 2017 and fiscal year 2018 by selling equipment to foreign 
partners and negotiating multi-year procurements over single-year 
contracts.
    And within financial management, DoD completed our first-ever 
consolidated financial statement audit in 2018, covering roughly $2.7 
trillion in assets. DoD has developed corrective action plans to 
address ninety-one percent of the total audit findings and 
recommendations, with more corrective actions to come.
    In addition to business reform, the Department has also made 
important structural reforms, including elevating U.S. Cyber Command to 
full combatant command status; standing up U.S. Army Futures Command; 
finalizing our split of the Acquisition, Technology, and Logistics 
office into two separate offices, Acquisition and Sustainment (A&S) and 
Research and Engineering (R&E); and appointing the Department's first 
Chief Data Officer.
The Way Ahead
    Our Department has been busy, but we are just getting started. I am 
encouraged by our initial progress. Focus and discipline are vital for 
our NDS's continued execution.
         our fiscal year 2020 request: a strategy-driven budget
    Our fiscal year 2018 funding stopped the erosion of our competitive 
edge by beginning to restore military readiness. Our fiscal year 2019 
funding continued readiness gains and made key down payments on a more 
lethal military. Now our Department needs adequate, sustainable, and 
predictable funding to maintain momentum and expand our modernization 
and readiness efforts. Every line of our fiscal year 2020 request is 
designed to implement our Strategy. Therefore, every dollar of it--both 
in baseline funding and overseas contingency operations--is critical. I 
ask for Congress's support for on-time funding of our $750 billion 
topline for National Defense, so we can continue to breathe life into 
the NDS.
    Our strategy-driven budget drives further progress along our three 
lines of effort and brings our military modernization efforts to life 
at the speed of relevance. It enables critical shifts to compete, 
deter, and win in any high-end fight of the future, while preserving 
capabilities to support current operations. With this funding, we 
ensure America maintains our asymmetric military advantage with a more 
lethal, agile, and innovative Joint Force.
    The fiscal year 2020 request includes the largest research, 
development, test, and evaluation (RDT&E) budget in 70 years, when 
adjusted for inflation. That is $104 billion in total requested funds 
for fiscal year 2020--$9 billion more than what we will spend this 
fiscal year. We have made strategic choices to prioritize lethality for 
the high-end fight.
    Across DoD, these choices move our capabilities from cost-accepting 
to cost-imposing, from the exquisite and purely survivable to the 
affordable and attritable. Through targeted investment, we will replace 
a federated approach with an enterprise one, enabling a more 
distributed, scaled path to innovation and modernization. This path 
prioritizes unmanned and machine capabilities, as well as the ability 
to ``fight in the dark'' without network dependency.
    With that broader context in mind, I will now focus on four 
priority areas: (1) Investing in the contested space and cyber domains; 
(2) modernizing in traditional air, maritime, and land domains, as well 
as multi-domain enterprises; (3) innovating in emerging technology 
fields to strengthen our competitive edge, and; (4) building on 
readiness gains to meet requirements for our current operational 
commitments and future challenges.
Space and Cyber Investments
    Our request recognizes the critically important role space will 
play in maintaining military superiority in the future. The $14.1 
billion dedicated to space will counteract the erosion of our 
competitive advantage by enhancing our existing space-based 
capabilities, like GPS, satellite communications, and missile warning, 
as well as increasing launch capacities. We will also stand up the U.S. 
Space Force Headquarters, U.S. Space Command, and Space Development 
Agency to best prepare DoD to assure freedom of operation in space, 
deter attacks, and when necessary, defeat space and counter space 
threats to the United States, our allies, and our partners.
    We also note the cyber domain's crucial role, both now and in 
warfare's future. That is why we have requested $9.6 billion to support 
offensive and defensive cyberspace operations, shore up network 
resiliency against adversaries, and improve our cyber posture. These 
efforts help ensure DoD has the information and communications 
technology capabilities necessary for implementing our NDS and 
realizing our mission.
Traditional and Multi-Domain Investments
    The fiscal year 2020 budget will ensure the U.S. military maintains 
long-term competitive advantage on land, in the air, and on the sea. 
Across these three traditional domains, we are investing a total of 
$107 billion for modernization.
    In the air domain, this includes $57.7 billion to increase the 
procurement and modernization of our fighter force. A balanced mix of 
fourth and fifth generation aircraft will effectively and affordably 
meet the entire spectrum of NDS missions, providing the stealth needed 
to gain air superiority, execute precision strikes, and conduct stand-
in electronic attack against peer competitors in highly-contested 
environments, while also providing counter-air and strike in more 
permissive environments. We will also purchase additional tankers, 
Advanced Medium- Range Air-to-Air missiles, and Joint Air-Surface 
extended range missiles.
    On land, we will invest $14.6 billion to fund roughly 6,400 combat 
and tactical vehicles, including M-1 Abrams upgrades and Amphibious 
Combat Vehicles, as well as multiple combat systems that provide 
overmatch on the last two hundred meters of the battlefield.
    In the maritime domain, we will increase and diversify our strike 
options, including offensive- armed unmanned surface and underwater 
vessels and advanced long-range missiles. fiscal year 2020 funds will 
also accelerate fleet growth, delivering more ships faster, including 
cutting edge unmanned variants.
    The fiscal year 2020 request also invests $14 billion in 
modernizing and recapitalizing all three legs of our nuclear 
capabilities, to include the Ground-Based Strategic Deterrent system, 
Columbia- class ballistic missile submarine, Long-Range Standoff 
Weapon, B-21 bomber, life-extended Trident SLBM, and the F-35 dual-
capable fighter aircraft; while also enhancing our missile warning and 
NC3 capabilities.
    We also slate $13.6 billion for missile defeat and defense 
modernization, increasing the capability and capacity of our ground-
based defenses, Terminal High Altitude Area Defense, and Aegis 
Ballistic Missile Defense systems; enhancing our space-based missile 
warning and other capabilities to address hypersonic threats; and 
developing boost-phase missile defense systems, including directed 
energy and air-launched kinetic interceptors.
    Also on the multi-domain front, we will invest $3.4 billion for our 
Special Operations Forces. The fiscal year 2020 request refocuses on 
strategic competition by increasing funding for research and 
development, modernization, and expanded capabilities for the high-end 
fight, while maintaining irregular warfare as a core competency.
Innovation and Advanced Technology Investments
    With more than $7.4 billion directed toward DoD's development and 
fielding of technologies focused on the high-end fight, the fiscal year 
2020 budget prioritizes funding across four key emerging areas: 
autonomy, AI/machine learning, hypersonics, and directed energy.
    Let me expand on hypersonics for a moment as one example. Without 
the long-range, survivable, and fast strike capability of hypersonic 
weapons, it will be difficult for our military to maintain access to 
key regions or come to the defense of allies and partners in a crisis 
or war. Yet, with the $2.6 billion requested in fiscal year 2020, 
projected doubling of funding requests in coming years, and close 
inter-service cooperation, we are accelerating pursuit of options 
deliverable from land, sea, and air, with some capabilities expected to 
deploy to the warfighter 3 years earlier than previously planned.
Sustainment and Readiness Investments
    This budget sustains our Joint Force and builds on critical 
readiness gains. We will invest almost $125 billion in operational 
readiness and sustainment, including $1.5 billion for advanced training 
facilities and ranges, $2.6 billion for improving and expanding cyber 
operations training, and $41.2 billion for further improving tactical 
aviation readiness.
    In addition, the fiscal year 2020 budget will allow an increase to 
our total end-strength by roughly 7,700 Service Members over the 
projected fiscal year 2019 level, as well as give our men and women in 
uniform a much-deserved 3.1 percent pay raise, the largest in a decade.
    In concert with the funding priorities I have just outlined, we 
will continue to pursue opportunities that balance capacity and 
capability by realizing economies of scale in large equipment 
acquisitions, like aircraft carriers and the F-35 Joint Strike Fighter. 
As we do so, we will continue to assess the utility of our investments 
through a lifecycle lens.
                               conclusion
    With Congress's support and delivery of on-time funding at our 
requested topline, this budget ensures our military maintains the 
lethality, adaptability, and resiliency necessary to compete, deter, 
and win against any adversary in an increasingly dangerous world.
    It is a privilege and honor to lead the most lethal military in the 
world. I thank those in uniform and their families for all they do, 
today and every day, to keep us safe, and I appreciate the critical 
role Congress plays to ensure our warfighters are ready to succeed on 
the battlefields of today and tomorrow.
    The men and women of the Department of Defense stand ready, as 
always, to protect liberty and freedom.
    Thank you.

    Senator Shelby. General Dunford.
STATEMENT OF GENERAL JOSEPH F. DUNFORD JR., USMC, 
            CHAIRMAN, JOINT CHIEFS OF STAFF
    General Dunford. Chairman Shelby, Vice Chairman Durbin, 
distinguished members of the Committee, thank you for the 
opportunity to join Secretary Shanahan and Secretary Norquist. 
I remain honored to represent your soldiers, sailors, airmen, 
and marines.
    While much of the discussion is going to focus on the 
challenges we face, I want to begin by assuring you that your 
armed forces can today deter nuclear attack, defend the 
homeland, meet our alliance commitments, and effectively 
respond should deterrence fail.
    I believe we have a competitive advantage against any 
potential adversary defined as ability to project power and win 
at the time and place of our choosing, but as members of this 
committee know, 17 years of continuous combat and fiscal 
instability have affected our readiness and eroded our 
competitive advantage.
    Chairman, Secretary Shanahan went through the details of 
the budget, so I will forego that and let the rest of my 
remarks be covered in the statement I have submitted for the 
record, and I look forwards to your questions.
    [The statement follows:]
          Prepared Statement of General Joseph F. Dunford, Jr.
    Chairman Shelby, Ranking Member Durbin, distinguished members of 
this committee, it is an honor to join Acting Secretary Shanahan and 
the Honorable David Norquist in testifying before you today. It remains 
my distinct privilege to represent the Soldiers, Sailors, Airmen, and 
Marines of the United States Armed Forces.
    Today, I can assure the committee that the United States military 
can defend the Homeland, meet our Alliance commitments, deter nuclear 
attack from any state actor, and effectively respond should deterrence 
fail. We have a competitive advantage against any adversary across all 
domains--air, sea, land, space, and cyber--and we can project power to 
advance the interests of the United States anywhere around the globe.
    But that competitive advantage has eroded. This is the result of 17 
years of continuous combat against transregional violent extremism and 
the damaging effects of funding instability. China and Russia have 
capitalized on our distraction and our constraints. They have invested 
in capabilities specifically designed to challenge our traditional 
sources of strength and have sought to undermine the rules-based 
international order that brought prosperity and relative peace for the 
last seven decades.
    With your help, starting in 2017, we arrested the erosion of our 
competitive advantage. Appropriations in fiscal years 2017-2019 allowed 
us to restore readiness and invest in new capabilities while meeting 
our ongoing commitments across the globe. However, we cannot undo 
decades of degradation in just a few years. This year's budget allows 
us to continue to restore our competitive advantage by enhancing our 
readiness and lethality.
                         strategic environment
    Today's strategic environment is extraordinarily complex and 
volatile. The National Defense Strategy (NDS) characterizes and 
prioritizes our strategic challenges with a ``2+3'' framework that 
names China and Russia as the primary challenges with which we must 
contend, along with North Korea, Iran, and violent extremism. This 
framework provides a benchmark against which we can measure our 
capabilities. It is not intended to be predictive of future crises or 
armed conflicts; rather, it is an important tool for planning, managing 
risk, and developing capabilities. Our assumption is that if we build a 
Joint Force with the capabilities and capacities to meet these 
challenges, either individually or in some combination, we will be 
well-positioned to respond to whatever threats the future holds.
    China. China has paired its rapid economic growth with substantial 
military investment as it strives for regional hegemony and global 
influence. By investing heavily in the space and cyber domains while 
expanding air and maritime capacity and militarizing disputed land 
formations, they are developing the ability to deny us access to the 
East and South China Seas. The intended effect is to weaken our 
alliance structure in the Pacific and allow Beijing to rewrite the 
norms, standards, and laws in the region. They are also advancing their 
interests globally through the One Belt One Road Initiative, creating 
exploitive economic relationships across Asia, Africa, and Latin 
America. These relationships can be leveraged to reduce our influence 
and the access we need to project military power.
    Russia. Similarly, Russia has invested in asymmetrical capabilities 
where they perceive they have a competitive advantage. They are using 
information, cyber, and unconventional operations combined with 
economic and political influence to advance their interests while 
seeking to undermine the credibility of NATO. We have seen examples of 
their revanchist behavior in the invasion of Georgia and Crimea, their 
ongoing activity in the Donbas, and the recent seizure of Ukrainian 
vessels near the Sea of Azov. We also saw their efforts to undermine 
democracy in 2016, both in Europe and the United States.
    North Korea. While we remain hopeful for a peaceful 
denuclearization of the Korean Peninsula, after two summits between 
President Trump and Kim Jong-Un, it is clear that we must remain ready 
for multiple contingencies. We are still dealing with a country that 
has nuclear weapons and ballistic missiles that threaten our Allies in 
the region and our Homeland. Regardless of the expressed intent of the 
North Korean leader, that capability exists and we must retain the 
force posture to deter and defend against the threat.
    Iran. Iran continues to project malign influence and present 
challenges with missile, cyber, proxy, and maritime capabilities. We 
also continue to monitor Iran's nuclear capability. The regime aims to 
establish itself as the dominant regional power; their military 
development is designed to restrict our access to their sphere of 
influence while their activities threaten freedom of navigation along 
important commercial routes, destabilize the government of Iraq, 
exacerbate civil wars in Yemen and Syria, and support proxies inside of 
Lebanon and Syria.
    Violent Extremist Organizations. While we have made significant 
progress against ISIS, Al Qaeda, and affiliated groups, the threats to 
the United States and our Allies and partners remain. Violent extremism 
is a global, generational, society-level problem of which military 
operations can only manage the symptoms. In the meantime, we have 
implemented a fiscally, politically, and militarily sustainable 
counterterrorism campaign.
    Our security, our prosperity, and the international system that 
makes them possible are threatened today by actors ranging from 
advanced and ascending militaries backed by nuclear arsenals to lone 
fighters inspired by radical ideologies. The Joint Force must respond 
by balancing the capabilities we need for today's operations with the 
depth, flexibility, and advanced technologies required to respond to 
the challenges of the future. If approved, the President's Budget 2020 
(PB20) request will enable the Department to adapt the force we have 
today, while we design the force needed for tomorrow's challenges.
                        the force we need today
    The Joint Military Net Assessment--a rigorous tool we use to 
evaluate the Joint Force's ability to meet its strategic objectives--
identified challenges across all domains in the context of our near-
peer competitors. Other assessments and strategic reviews have also 
highlighted the sustained investment we need to improve readiness, 
capabilities, and capacities in the Joint Force. The fiscal year 20 
budget provides funding for current operations and, building on budgets 
of recent years, continues to build readiness and improve lethality by 
modernizing existing capabilities and expanding capacity.
Readiness
    We have realized readiness improvements through fundamental changes 
in our global force management processes. As directed in the NDS--and 
in support of its 2+3 strategy--we have implemented Dynamic Force 
Employment (DFE). This is a top-down process of prioritizing and 
allocating resources against our strategic priorities with bottom-up 
refinement from the Geographic Combatant Commanders.
    DFE allows us to position resources globally to mitigate strategic 
risk and be operationally unpredictable while remaining strategically 
predictable. This improves our ability to respond to unforeseen 
crises--as well as opportunities--and provide strategic flexibility for 
senior decision makers while maintaining readiness across the Joint 
Force.
    Within this new framework for global force management, your men and 
women in uniform are operating across the globe every day to assure 
Allies and partners, deter adversaries, and assist local forces in 
combatting violent extremism at its sources. PB20 provides them the 
resources they need to accomplish their missions and return home 
safely.
Current Operations
    China. U.S. forces conduct freedom of navigation operations 
globally to challenge excessive maritime claims--including those made 
by China--and demonstrate our determination to operate wherever 
international law allows. In the South China Sea and elsewhere in the 
region, we also fly bomber missions, demonstrating a resilient global 
strike capability that checks Chinese ambition and assures our regional 
Allies and partners. Throughout the Pacific, our troops exercise and 
engage with partners to signal our commitment and counterbalance 
China's challenges to the rules-based order.
    Russia. In Europe, the European Defense Initiative and associated 
posture adjustments and combined exercise programs represent the 
largest reinforcement of NATO's collective defense posture--and the 
largest demonstration of its interoperability--since the Cold War. U.S. 
personnel also contribute to NATO's integrated ballistic missile air 
defense in Europe. In both the Atlantic and Pacific, we conduct 
sustained air and sea operations to monitor Russian activities and 
deter any aggression.
    North Korea. U.S. troops on the Korean Peninsula are postured and 
trained to deter North Korean aggression, provocation, and coercion. 
Their current priority is supporting the State Department-led maximum 
pressure campaign to achieve the full, final, and verifiable 
denuclearization of the Peninsula. In concert with like-minded nations, 
we have expanded our sea and air operations to deter and disrupt 
illicit ship-to-ship transfers of refined petroleum and other materials 
restricted by UN Security Council Resolutions.
    Iran. U.S. forces conduct freedom of navigation operations in the 
Strait of Hormuz. We continue our commitment to the stability of the 
government of Iraq, and our efforts to build the capacity of our 
regional partners. In these and other ways, the Joint Force complements 
U.S. diplomatic and economic efforts to counter Iranian malign 
influence in the Middle East.
    VEOs. The United States has assembled a global coalition to counter 
violent extremist organizations--leveraging a relatively small 
footprint of U.S. forces to enable local partners throughout the world. 
The immediate priority is achieving the enduring defeat of ISIS in Iraq 
and Syria through Operation INHERENT RESOLVE. We are also working by, 
with, and through partners in every region to cut the ``connective 
tissue'' of foreign fighters, resources, and the ideological narrative 
that enable violent extremists to operate transregionally.
    Iraq and Syria. U.S. troops remain engaged in the D-ISIS campaign. 
As the campaign transitions from clearing ISIS-held territory to a 
focus on stabilizing the region, activities such as training local 
security forces, enabling local governance, and conducting 
counterterrorism operations will help prevent a power vacuum in 
Northeast Syria and a resurgence of ISIS. We are working with our 
Coalition partners to ensure we meet Turkish security concerns as well 
as protect those that fought with us against ISIS.
    Afghanistan. Along with our Allies and coalition partners, we are 
setting the military conditions to fully support an Afghan-led, Afghan-
owned peace process. Coalition forces train, advise, and assist 
Afghanistan National Security Forces, as well as provide critical 
aviation support, intelligence, and other capabilities to make them a 
more effective fighting force.
    In addition to readiness gains from improved force management, DoD 
budgets in recent years helped arrest the decline of unit readiness 
across the Joint Force. In fiscal year 2018 and fiscal year 2019, we 
increased the quality and quantity of unit training, improved personnel 
deployment availability, increased stocks of key munitions, streamlined 
aviation depot processes, and added capacity to address shortfalls in 
maintenance and sustainment functions. PB20 enables us to continue on 
this path, but a decade of neglect will require years to correct. A 
full restoration of our readiness will require sustained, sufficient, 
and predictable funding into the future.
              a modern and more lethal force for tomorrow
    The NDS calls for a more lethal force that expands the competitive 
space to meet critical challenges and key operational problems. The 
PB20 request invests in a more lethal force by funding efforts to 
modernize current capabilities and expand warfighting capacity.
    A primary modernization priority is our aging nuclear enterprise. A 
large-scale nuclear attack poses an existential threat to the United 
States. U.S. nuclear forces are the indispensable means of addressing 
this threat, making nuclear deterrence the highest priority mission of 
the Joint Force. The 2018 Nuclear Posture Review established the 
elements of the nuclear modernization program--a program that is 
necessary, prudent, and affordable given the nature and evolution of 
the threats we face. PB20 fully funds that program.
    PB20 also enhances joint warfighting capacity by fielding the 
capabilities we need to project power. In the air, continued 
procurement of 5th generation fighter aircraft allows us greater 
flexibility to respond globally today and in the future. At sea, 
recapitalizing the naval fleet with modern and lethal platforms 
sustains undersea, surface, naval aviation, and fleet logistic 
advantages while increasing investments in unmanned, autonomous 
maritime capabilities. And on the ground, enhancement of long-range 
precision fires, development of the next generation combat vehicle, and 
investments in close combat systems ensure our Soldiers and Marines' 
overmatch on the battlefield.
    Space continues to be a priority area for modernization and 
innovation. In response to the evolution of threats to U.S. assets in 
space, we will establish the U.S. Space Force Headquarters, U.S. Space 
Command, and Space Development Agency. To deter our adversaries, we are 
pursuing organizational constructs, systems, and capabilities that will 
produce a more lethal, resilient, and agile Joint Force. Additionally, 
this budget request includes substantial investments in Missile 
Warning, launch platforms, Space Situational Awareness, Space Control, 
and enhancements to Position, Navigation, and Timing.
    In the cyber domain, PB20 allows the Joint Force to further develop 
and employ the necessary tools to defend DoD infrastructure, compete 
below the level of armed conflict, and operate as part of broader joint 
operations. This budget request increases our investments in required 
capabilities to operate effectively in cyberspace and maintain our 
competitive advantage against near-peer adversaries.
    While improving lethality in the near term, we will continue to 
develop and design a future Joint Force that can fight and win against 
any adversary on any battlefield of tomorrow. A joint concept-driven, 
threat-informed approach to capability development--leveraging 
wargames, exercises, and experimentation--allows us to more 
deliberately evaluate needs of the current force and prioritize future 
requirements. Our refined approach to Force Development and Design 
allows senior leaders to pair emerging technologies with optimal 
organizational constructs and innovative operating concepts to plan and 
execute joint operations now and in the future.
    No investment is more important to the effectiveness of our future 
force than the development and education of our future leaders. The 
Nation's ability to compete, deter, and win requires leaders who have 
the vision, intellect, and critical thinking skills to employ, develop, 
and design the future Joint Force. With a special emphasis on 
revitalization of the War Colleges, our leader development program is 
designed to fully support the development of these strategic thinkers 
and future senior leaders of the U.S. Armed Forces.
                               conclusion
    This is my fourth and final appearance before this committee in 
support of the Department's annual budget request. I thank you for the 
great honor of representing your Soldiers, Sailors, Airmen, and 
Marines.
    More importantly, I would like to thank the committee for all you 
have done to support our troops, as well as their families. In visits 
to the Joint Force at bases and posts, stateside and around the world, 
I continue to be amazed by their spirit and dedication to the mission. 
Through the support of the Congress and the people you represent, our 
service members in uniform will prevail in our current conflicts and be 
prepared to confront the threats the United States will surely face in 
the future.
    Together, we have honored our solemn obligation to never send our 
sons and daughters into a fair fight. With your continued support for 
sustained, sufficient, and predictable funding, we never will.

    Senator Shelby. Without objection, it is so ordered.
    Thank you very much.
    I will have several questions, and others I will ask to be 
put in the record, for the record, and ask you to answer them 
for the committee.
    It has been about a year since the Department of Defense 
received its first request from the Department of Homeland 
Security. As the border and humanitarian conditions have 
evolved over the past several months, you have received 
multiple additional requests, to include support for 
construction of a physical barrier and additional support from 
the National Guard.
    It is my understanding that there have been seven requests 
at least so far.
    Secretary Shanahan, could you tell us here, give us an 
update on the status of DoD's operations at the border as well 
as provide your best judgment of how much support you could 
provide without negatively affecting other DoD missions?
    Secretary Shanahan. Chairman, let me start with 
characterizing our support to the border in maybe three areas: 
the first being building of the barrier, the second being the 
request for assistance that you described, and then the 
capabilities that we intend to enable within the Department of 
Homeland Security.
    So in terms of the border barrier itself, the Army Corps of 
Engineers has responsibility to build the barrier. We now have 
on contract, sufficient funds to build about 256 miles of 
barrier.
    Over the course, just to give you a sense of----
    Senator Shelby. 256 miles?
    Secretary Shanahan. 256 miles. And that represents DHS 
(Department of Homeland Security) funds from 2017 and 2018 as 
well as Treasury forfeiture funds as well as reprogramming.
    How you will see this materialize in the next 6 months, 
about 63 additional new miles of wall will come online, so 
about a half a mile a day will be produced.
    The RFAs (Request for Assistance), as you described about, 
a year ago, we received our first request, and I think as of 
this morning, we have 4,364 troops on the border. It is a 
mixture of guard and active. The primary role is doing monitor 
and detection of which we have approximately 1,167 performing 
that mission, but we have a broader set of missions, which 
range from logistical support to aviation support, food 
service, the whole host of those.
    To more broadly answer your question in terms of readiness, 
we have seen no degradation to readiness. In fact, in some 
cases, it has enhanced our readiness because the troops get to 
perform certain functions.
    And then the Chairman and I--and I will maybe ask the 
Chairman to describe how we are supporting DHS. We have a 
history in the Department of doing border control, and we have 
supplemented DHS with leadership so that we can address how to 
more effectively control the southwest border.
    Chairman, maybe you could provide a little commentary.
    General Dunford. Chairman, what we did was we have a 
position on the Joint Staff, Assistant to the Chairman, and 
that individual typically supports the Secretary of State. We 
have offered him up to the Secretary of Homeland Security to 
put together an interagency planning team.
    As the Secretary said, although the commitment to the 
border has not impacted our preparedness for other missions, at 
this point, what we want to do is get into a more predictable 
mode of the requirements the Department of Homeland Security 
has and do better at integrating across the Government.
    So we provided a two-star plus a number of planners to the 
Department of Homeland Security, so that we can lay out the 
next couple years based on the assumptions of the numbers of 
migrants that we will find at our border based on the capacity 
of homeland security and the growth over time and then 
obviously based on the report that they will need from the rest 
of the Government.
    So what we are hopeful to do is to have, in fairly short 
order for the Secretary of Homeland Security, a much more 
predictable comprehensive plan for the next couple years.
    Senator Shelby. Not reached any agreement on a budget for 
fiscal year 2020 that would include funding, of course, for the 
Department of Defense, which is our priority here. We do not 
know what the outcome is going to be. We are working at it. 
Senator Durbin and I will be on top of it, but it could be a 
long, long haul this year, as you well know.
    I have a number of questions I am going to submit for the 
record, where we can move on, dealing with China advanced 
information networks, dealing with hypersonic missile 
investments--you are very familiar with all of this--concerning 
the technological edge that we cannot cede to China or Russia 
or anybody. If we do, we do it at our own peril. Do you agree 
with that? And Space Development Agency on this, we will get 
into this too in some questions.
    Other than that, I want to recognize Senator Durbin.
    Senator Durbin. Thanks, Mr. Chairman, and, Secretary 
Shanahan, thank you for being here. And let me join in the 
chorus of praise for General Dunford. General, thank you for 
your many years of service to our Country. I mean it from my 
heart.

                            SOUTHWEST BORDER

    Secretary, we just received last week a supplemental 
funding request of $377 million to pay for the last year's 
involvement of the Department of Defense and the Southwest 
Border mission. It is very clear this mission is going to 
continue into the next fiscal year.
    So why is there nothing in the President's budget request 
to continue funding this mission?
    Secretary Shanahan. This was the essence of the comment 
General Dunford was making. We really need a more formalized 
plan, and I will be working with Acting Secretary McAleenan to 
ensure we identify the appropriate resources so that we can 
sustain the appropriate level of effort.
    Senator Durbin. There was a statement that has been made 
publicly by Department of Defense and others about a clear line 
of demarcation between the mission of the Department of 
Homeland Security and the mission of the Department of Defense.
    The longer this Southwest Border mission continues, the 
line of demarcation starts to blur in terms of where we are 
drawing a line saying this is not a military responsibility. 
This is law enforcement, immigration, internal security 
responsibility.

                              DEMARCATION

    What assurance can you give us that this age-old line of 
demarcation will be respected?
    Secretary Shanahan. There will never be a blurring of the 
line in terms of law enforcement. We do not provide law 
enforcement, never have. We never will. Our role is to support 
DHS.
    Senator Durbin. I know it is, but let me ask you 
specifically. I understand that HHS (Department of Health and 
Human Services) has visited eight Department of Defense 
installations looking for sites to house unaccompanied 
children. They include Great Lakes Naval Station in my home 
State of Illinois.

               UNACCOMPANIED CHILDREN IN MILITARY HOUSING

    So in this relationship between HHS and the Department of 
Defense, where do things stand with their request for military 
housing?
    Secretary Shanahan. They have made requests to us to 
provide housing. Our role in providing housing to them would be 
turnkey. So if there is something that is identified that we 
agree to support, we would prepare and then hand the keys over 
to HHS.
    Senator Durbin. When will the decision be made as to 
whether military housing will be provided?
    Secretary Shanahan. I am going to ask David Norquist to 
answer that question.
    David.
    Mr. Norquist. Let me take it for the record in terms of 
when we have that.
    Senator Durbin. For the record. Okay.

                              SPACE FORCE

    Secretary Shanahan, last week many of us participated in a 
classified briefing on threats in space. We certainly have 
incredible capabilities in space, and there is no doubt that we 
need to protect them.
    However, it is not clear how the proposal for a Space Force 
would improve the effectiveness of 15,000 space professionals 
who are currently on the job. Why does it make more sense to 
establish a $2 billion Space Force bureaucracy within the Air 
Force or separate from it? Would it be a better use of taxpayer 
dollars to invest that funding into new satellites, new 
rockets, and new approaches?
    Secretary Shanahan. Thank you for that question.
    The $2 billion, in my view, was overstated. I think that 
detracts from the real value of the Space Force.
    The fundamental proposition of the Space Force, given the 
change in the environment that space is now contested, is the 
status quo sufficient? It is not. The Space Force represents 
two significant changes. One is provide the command authority 
when it comes to protecting our economy and our defense assets 
as a fundamental change in mission, that we resource that; and 
then, secondarily, how do we deploy new capability that is not 
burdened by red tape and leverages so much of the commercial 
innovation that has occurred in space:
    Maybe I would ask Chairman Dunford for his comments from 
the perspective of he has seen the Pentagon face problems 
before, and our approach generally is we react after something 
negative has occurred. I really think we are on the front end 
of helping to ensure that we sustain our competitive advantage.
    Chairman.
    General Dunford. Vice Chairman Durbin, what I would say is 
that an organization that is singly focused on recruiting 
people, training people, the path of capability development, 
the doctrine in space, has a better chance of giving us the 
kind of focus that I believe we need.
    I have watched this now over the last couple years. I have 
been on my own personal journey from the Space Force to make a 
recommendation.
    In 2017, I was not convinced that we needed a Space Force. 
Over time, I had been convinced based on the eroding 
competitive advantage we have vis-a-vis China and Russia in 
particular and what I see to be the future, the 
interdependencies that we have that an organization again that 
has that singular focus would posture the Department to better 
deal with only one of five domains that we have in our 
warfighting doctrine.

                         ACTIVE DUTY PERSONNEL

    Senator Durbin. I am going to close with one questions, and 
at the risk of spoiling your plans to publish a book, I am 
going to ask you, after 40 years of service in our military at 
the highest levels of leadership, what is it, as you depart, 
that you would point to as the most significant development or 
significant challenge that we face?
    General Dunford. You know, Vice Chairman, first, there is 
no danger of spoiling the book that will not be written. I can 
assure you of that.
    But the one thing, I came in--my date is 1975. So I was 
around as a platoon commander during the Vietnam days, and so 
when people talk about a hollow force, I was actually on active 
duty in 1980 when it was a hollow force. What we had was an 
imbalance between our people, our training, and our equipment.
    And I have lived through now the development of the force 
that we have today, and I would give our Vietnam veterans a lot 
of credit for rebuilding the force after Vietnam in the force 
we have today.
    I would just tell you that the single biggest change I saw 
was a qualitative change in the people that we have on active 
duty from the 1980s, 1990s, and through today. And I think the 
men and women that we have today in terms of their intellect, 
in terms of their fitness, in terms of their commitment is 
really the most important thing we have, and I think we all 
know that. But I walk away having that lesson reaffirmed to me 
over the last couple years.
    Senator Shelby. Senator Moran.

                             CYBER THREATS

    Senator Moran. Mr. Chairman, thank you.
    General Dunford and Secretary Shanahan, thank you for being 
here.
    General Dunford, thank you for your service to our Nation. 
My understanding is this is your 26th budget hearing. My 
condolences for that aspect of your career, but I do want to 
pay tribute to you and express gratitude on behalf of all 
Kansans and Americans for your lifelong service to our country.
    You and I met for the very first time in the Oval Office, 
but it was the Oval Office at the Reagan Defense Forum. I 
remember it well and pleased to be there and to get acquainted 
with you.
    I wanted to ask my question, if I have time for more than 
one. I wanted to ask at least my first question to the 
Secretary.
    Mr. Secretary, according to an October 2018 GAO (Government 
Accountability Office) report, the Department of Defense--I am 
quoting--``The Department of Defense faces mounting challenges 
in protecting its weapon systems from increasingly 
sophisticated cyber threats.''
    We met almost a year ago to discuss this topic, cyber 
vulnerabilities in weapon systems, and relying on--the fact is 
that we rely on less than a dozen red teams across the services 
that are NSA-certified to conduct threat analysis and 
assessments of DoD systems.
    You and I had a productive conversation, and Director for 
Operational Test and Evaluation formally documented in their 
annual report much of what we discussed, recommending red team 
capacity and retention options must be increased to meet the 
demands of testing, training, and other assessment activities.
    However, these red teams, in my view--and I would think in 
yours--lack programmatic funding to adequately staff, train, 
and equip them and emulate advanced cyber threats, and as you 
know, DOT&E (Director, Operational Test and Evaluation) has saw 
increases in red team capacity in the past, but the construct 
does not exist to appropriately program those resources.
    So, Mr. Secretary, would you support investing in red team 
integrated capabilities to ensure programmatic funding for 
personnel training and cyber ranges and tools for the red cyber 
team community? And in addition, would you support a 
scholarship for service program like the National Science 
Foundation to create a cyber warrior pipeline through 
universities to direct and employ scholarship to this service?
    Secretary Shanahan. Senator, I would support all of those 
efforts.
    The comment that I would provide along with this is our 
biggest challenge with the red teams is keeping the people. 
They are so talented and it is such high demand that we really 
get out-recruited. So anything we can do to generate capacities 
is extremely critical.
    As you know, these red teams parachute, if you will, into 
different installations and conduct these attacks. So we can 
assess the vulnerabilities. So we have red teams, but in 
addition to that, at a Department level, we have taken a risk-
based approach to identify what are the most critical risks and 
then how do we deliberately mitigate those as a complement to 
those red teams.

                             NATIONAL GUARD

    Senator Moran. Well, Mr. Secretary, your comments or your 
return comment to me allows me to highlight the National 
Guard's role.
    I would indicate in Wichita, Kansas, our Air Force National 
Guard unit is a red cyber team as certified, and it is an 
aspect that I think sometimes is forgotten, which you have men 
and women serving in careers outside the guard who then devote 
their time and energy inside the guard. And it allows them to 
have experiences both places and income from the private sector 
that augments the opportunity for the active military to 
attract and retain those individuals.
    Secretary Shanahan. We have found particularly in the area 
of cyber in the guard a tremendous number of people that are 
working in the industry, and it is also a real source of 
innovation for the active.
    Senator Moran. I also want to raise one more topic. I do 
not have a clock in front of me, but I assume I am still within 
my 5 minutes.

                          CYBER VULNERABILITY

    A concern worth examining is that when a cyber 
vulnerability is found, who is responsible for the fix and 
mitigation? What entity then comes and says, ``This is what we 
are going to do,'' and is responsible for the outcome?
    Secretary Shanahan. As you can imagine, in the Department, 
we have, just to put it in perspective, 3 million endpoints. So 
when we talk about vulnerabilities, the network is extremely 
large and complex. So there is a variety of responsibilities 
across the organization for identifying those and retiring 
those risks. So it is not a singular organization that has 
responsibility.
    I think our focus has been to elevate the responsibility of 
everyone and then change our policies to be that the network 
now is going to become zero trust. So we assume that it is 
always under attack, and we are changing our procedure so that 
we can authenticate anyone who is on the network and 
authenticate all of those devices because I think just relying 
on someone to police it, that does not give us the 
comprehensive coverage that we need.
    Senator Moran. Mr. Secretary, thank you.
    General Dunford, thank you.
    Senator Moran [presiding]. Senator Leahy.

                     NATIONAL EMERGENCY DECLARATION

    Senator Leahy. Mr. Chairman, thank you very much, Senator 
Durban and Chairman Shelby.
    Thank you, Acting Secretary Shanahan.
    Of course, General Dunford, I know this is your last 
appearance here, and I thank you formally on the record for 
that. I intend to be speaking at greater length on the floor of 
the Senate praising you. I will not do that here because I do 
not want to embarrass the heck out of you in front of 
everybody, but I think you have been an example of what our 
military should be and our people in uniform should be. I am 
proud that my youngest son wore the same uniform--but he did 
not have all these stars on the shoulder.
    Acting Secretary Shanahan, I have serious concern with the 
President's proposed border wall as use of a national emergency 
declaration of fund it. I think it is an end-run around this 
committee and the Constitution because the power of the purse 
is in the Congress.
    It is especially offensive that the President wants to raid 
funds that this committee and Congress has voted for to other 
projects that would support our servicemembers and their 
families, their military missions around the world. We thought 
that through, had a bipartisan vote to support military around 
the world. I do not think that DoD should be canceling 
important support facilities such as schools and medical 
clinics, important to military spouses and children, to fund 
his pet project.
    If the Department decides to cancel projects that we have 
given funding for so they can go to the wall, I supported those 
projects already. Do not expect me to support them a second 
time around. We have to make choices here all the time, and if 
I voted for a project and then it turns out the Department of 
Defense is not going to spend it, even though they requested 
it, if it is going to go to the wall, then as one Senator, I am 
not going to vote for additional funds to replace those 
projects, needy as they are.
    So when will Congress be informed which projects, if any, 
will be deferred or canceled in order to fund the wall?
    Mr. Norquist. Well, in terms of when the Congress would be 
informed, the process right now is the--we have two steps. We 
have the authority under 284, and then we have the one you are 
referencing which is the military construction under 2808.
    The Secretary put out direction about a month ago asking 
the Chairman of the Joint Chiefs of Staff to look at the 
requirements for that and make sure it met the legal 
requirements. To answer your question, that report is due to 
him I think in the next few days this week, and that will give 
him the basis of the information that the Secretary would need 
to make a decision.
    Senator Leahy. I asked this question. We asked, for 
example, the folks from Camp Lejeune which had enormous 
hurricane damage. We voted for money to repair it. Is that 
money going to be taken? I just use that as one example.
    I have been to Camp Lejeune. My son trained there at Camp 
Lejeune, and I assume that the devastation is there. Is there 
going to be money there?

                            HOUSING PROJECTS

    Can you tell us that our men and women in uniform and their 
families are not going to be adversely affected by these 
canceled projects?
    Mr. Norquist. So for the projects that----
    Senator Leahy. You know, there has been a lot on TV, for 
example, housing that has got mold and vermin and so on.
    Mr. Norquist. So the issues that relate to housing, those 
are not funded through the military construction account. Those 
would not be affected. Those are ones where there are 
contractors responsible for meeting those standards, and the 
services have processes in place to hold them to those 
standards.

                           READINESS PROJECTS

    Senator Leahy. What about readiness? Will anything be 
detracting from our readiness?
    Mr. Norquist. So with regard to readiness, the focus of the 
process is to ensure that if we have to identify projects to 
become sources, we look at ones that do not start until later.
    As you pointed out, there is a request pending for the 
additional funding to backfill it, and that will become the----
    Senator Leahy. Yes, but that is where you may have some 
problem.
    Mr. Norquist. Understood.
    Senator Leahy. We funded it once, and you take the money 
away. It is going to be hard to see them compete with other 
projects. Later on, the money way well not be there.

                              INDO-PACIFIC

    General Dunford, Acting Secretary Shanahan, in my office 
yesterday, we talked about my trip to Vietnam, which I think 
was successful. We had eight Republican and Democratic Senators 
to join. I saw firsthand security cooperation at Da Nang and 
Bien Hoa Air Base, the remediation projects which I have 
discussed with you and I have discussed with, Mr. Shanahan, 
your predecessor.
    I realize we are in open hearing, but can you discuss the 
strategic value of increased security cooperation with the 
government of Vietnam, General?
    General Dunford. Senator Leahy, thanks.
    I would start by telling you that in our National Military 
Strategy, when we looked at our source of strength, we said it 
was a network of allies and partners that we have since World 
War II.
    So when we look at the Pacific and we talk about a free and 
open Indo-Pacific, our strategy there, you would have to 
consider Vietnam as a critical partner in ensuring a free and 
open Indo-Pacific, and what we seek in the Pacific, of course, 
is a group of like-minded nations that will collectively act to 
ensure that we maintain our national law, open access to the 
global commons, and in a legal way of addressing territorial 
disputes.
    So I think Vietnam in those areas has indicated a shared 
interest in a free and open Indo-Pacific, and so I think 
Vietnam is very important in that regard.
    Senator Leahy. Sending our aircraft carrier there must have 
sent quite a signal throughout that part of the world.
    General Dunford. Senator, I think what it sent was a signal 
of the relationship between the United States and Vietnam, but 
more importantly, again, it was a physical manifestation of 
Vietnam's agreement with us on how we ought to address that 
free and open Indo-Pacific.
    Senator Leahy. We went to Bien Hoa, and of course, the U.S. 
is helping clean that up. It was a strong feeling from the 
Vietnamese that that is a strong indication from us.
    Thank you, Mr. Chairman.
    Senator Shelby [presiding]. Thank you.
    Senator Blunt.

                  NATIONAL RECONNAISSANCE ORGANIZATION

    Senator Blunt. Thank you, Chairman.
    Back to another Space Force question--and it may not be in 
this budget yet, but on the National Reconnaissance 
Organization, a sort of shared entity between intel and 
defense, that largely has been run, I think as an intel entity 
but with full defense access.
    I would have some concern about the unique character of 
that organization changing and wonder from either General 
Dunford or the Secretary of what is the thought process on the 
National Reconnaissance Organization.
    Secretary Shanahan. Senator, the integration in terms of 
the information and the data that we would share is to me the 
most vital piece that we have to protect. So as we continue to 
invest in new capability, assume for today that the 
organizations remain separate, the ability to share and pass 
information timely and effectively is what the Space Force 
really works to address.
    So when Betty Sapp was there and now with Sue Gordon, 
whether we want to call it formally or informally, on a 
technical basis, we have remained aligned. We do not know how 
organizationally things will evolve in the future, but it is so 
important that we build the pipes, if you will, so that there 
is no latency and delay in how we share information because in 
the future, where artificial intelligence is so critical, it is 
getting the data to the algorithms. And so building that 
network is where I think the Space Force and staying aligned is 
so important.
    Senator Blunt. Well, I think those are obviously the right 
goals. I just think there is a uniqueness here.
    I do not know, General Dunford, if there are any Title 10 
and Title 50 issues that get more confused if it goes under a 
new entity, either the Space Force or any of the defense unique 
components, but that would be one of the concerns I have as 
well.
    General Dunford. Senator, I think one of the reasons why we 
left this to a later discussion is for the very reason you talk 
about.
    First of all, if you just start here with Congress, the 
oversight committees are different and the funding streams are 
different when you talk about Title 50 money and really the 
funding streams that go to NRO (National Reconnaissance 
Office).
    But I would emphasize to the Secretary that is the way I 
think about it, and we have over the last few years built an 
integrated operations center. So we have shared situational 
awareness. We have shared operations in support, and I think I 
share the view with the Secretary that whatever we do, we just 
need to achieve that end state. That is what is most important.
    Senator Blunt. And I believe what you are both saying is 
that is the way it is working now. So thinking carefully about 
this, if the goal we want to achieve is to be sure we continue 
to have ongoing forward movement than what we have now would be 
important.

                             CYBER OFFENSE

    I left vote just as Senator Moran was asking his questions 
about cyber, and I do not want to be too redundant here. But I 
have two questions about cyber. One is the authorization for 
cyber offense relatively new, about maybe a year ago, maybe a 
little more, maybe almost two, but relatively new. And anything 
you would want to say about that? And anything that this budget 
does that impacts your ability to recruit our cyber personnel 
would be interesting to me.
    Secretary Shanahan. Maybe the first question you had, the 
authorities are extremely important because we need a 
deterrence. Building thicker castle walls and higher castle 
walls is not the way to survive with this new cyber threat, and 
the threat continues to grow, so having a deterrent effect is 
very important. That is why the offensive authorities are 
critical.
    Senator Blunt. And you now have those?
    Secretary Shanahan. We do.
    Senator Blunt. And cyber warriors, how hard are they to 
find, and what are we doing to find them?
    Secretary Shanahan. Well, I was going to say this budget 
has a double-digit increase in terms of resources to Cybercom, 
and I have spent a considerable amount of time with General 
Nakasone, not just simply on how do we generate more cyber 
warriors. I mean, that really is a jewel that is being created 
there in NSA (National Security Agency) and Cybercom.
    Retention there really comes from how you treat your 
people, and he is really a supreme leader in that regard.
    The budget, I think reflects a prudent investment in the 
capabilities that we are going to need in the future in terms 
of encryption and quantum. As this threat continues to evolve, 
it is just like space, an area where we need to make the right 
investments for the technologies that will not mature for 
another 5 or 7 years.
    Senator Blunt. Thank you.
    Thank you, Chairman.
    Senator Shelby. Senator Reed.

                                  IRAN

    Senator Reed. Thank you very much, Mr. Chairman.
    Mr. Secretary, on Sunday evening, the National Security 
Advisor announced that the U.S. is deploying a carrier strike 
group and a bomber task force to CENTCOM in response to a 
number of troubling and escalatory indications and warnings 
involving Iran. The threats were apparently significant enough 
not only to surge additional military capabilities in the 
region, but for Secretary Pompeo to cancel a meeting with Prime 
Minister Merkel and go to Iraq.
    But it took the Department more than 2 days to share any 
information with the congressional defense committees, and I 
sit on both. Frankly, I think that is unacceptable. If this is 
a serious situation requiring a response of this nature, we 
should be informed.
    So why were we not informed in a detailed and timely 
manner, and when will we receive a detailed, presumably 
classified briefing on what is happening?
    Secretary Shanahan. Maybe I can give you just an evolution 
of the course of events. We always give timely information. So, 
I mean, I think that is the response we have here, and I 
believe Chairman Dunford has some time with you this afternoon. 
I would imagine he can give you a detailed update.
    But let me give you a characterization of the events. 
Thursday morning, we were working in Venezuela with a whole-of-
government. We received indications, this very, very incredible 
intelligence. On Friday afternoon, we went to work, 
understanding the sources and to get the teams turning on what 
does it mean and how might we respond.
    I went for a run, and then Chairman Dunford called me up 
and said North Korea was now shooting rockets and missiles.
    Saturday, the Chairman and I went through the intelligence 
with General McKenzie from CENTCOM, and it was really Sunday 
afternoon that you came back and said, ``Here is what we are 
recommending. I need authority to proceed.''
    I then coordinated with State Department and NSC (National 
Security Council). So it was really Sunday night before any 
real information was put together.
    In an ideal situation, we would give you an update on 
Monday. I guess this is Wednesday. We should be more timely.
    Chairman, any----
    General Dunford. Senator Reed, the reporting 
notwithstanding, I just want you to know our focus over the 
weekend was to deter. We saw the intelligence, and so we sent 
some messages on Friday to make sure that it was clear to Iran 
that we recognized the threat and we were postured to respond 
to the threat.
    And then what I asked the Secretary for on Sunday--
eventually, the Lincoln would have made its way to the Gulf. 
What I asked really was to accelerate the movement of the 
Lincoln and the bomber task force so that there would be no 
ambiguity about our preparedness to respond to any threat 
against our people or our partners in the region, and that is 
why we worked pretty hard to do that because what we did not 
want to do is be in a position to respond. We wanted to make 
sure that we took as much action as we could over the weekend 
to actually deter that, but I understand your point on the 
reporting piece.
    Senator Reed. Let me, Mr. Secretary, follow up with another 
question.

                   ISLAMIC REVOLUTIONARY GUARD CORPS

    Before Easter, I traveled to Iraq and Afghanistan. I had 
the opportunity to meet with the president of Afghanistan, the 
chief executive of Afghanistan. In Iraq, I saw several local 
leaders, the prime minister and the president. All of them 
suggested that the designation of the IRGC (Islamic 
Revolutionary Guard Corps) as a terrorist group was provocative 
and destabilizing. So that is for the record.
    But let me ask you. Are you aware of any evidence that the 
IRGC or any other Iranian group is an associated force of al-
Qaeda, associated force being a key provision of the AUMF 
(Authorization for Use of Military Force)? Do you have any 
evidence of that?
    If you do not want to answer in open session, that is quite 
all right.
    Secretary Shanahan. Yes, I think if we could do it in a 
closed environment----
    Senator Reed. I understand that. Thank you.
    Senator Shelby. Senator Boozman.

                           HURRICANE RECOVERY

    Senator Boozman. Thank you, Mr. Chairman, and thank you all 
for being here.
    It is great to see Secretary Shanahan. We appreciate your 
leadership, and, General Dunford, it is always good to hear you 
come and talk about how we can be a more lethal, effective 
fighting machine.
    Over the past 6 months, our services have dedicated a 
significant amount of resources to hurricane recovery on our 
military installations. President Trump, I believe, is at 
Tyndall today, touring that facility.
    I am going to be traveling to Camp Lejeune in North 
Carolina to inspect the damage there.
    Our military bases are still waiting on disaster relief 
from Congress, as our servicemembers continue to operate in 
poor conditions.
    Can you give us an update on the impact of the aid you all 
have received so far, if any, and what more is still needed?
    Then following up on that, if Congress does not pass a 
disaster aid package soon, how will that affect our ratings, 
which again is the name of the game?
    Mr. Norquist. Sir, as the services respond to a hurricane, 
they have the immediate evacuation. Then they have got to go 
through and assess the property, trying to do the repairs that 
they can do. They want to take care of all the folks who have 
been displaced. All of these consume resources that were not 
originally programmed for that purpose.
    So when Congress provided the support, when this committee 
in particular provided support for that reprogramming, for both 
the Air Force and the Marine Corps, that allowed them to 
continue those operations because there is only a limited 
amount they can take from others, from the other accounts.
    The supplemental that the Congress is considering would be 
another very significant step forward in allowing them, 
particularly as we are dealing with facilities sustainment, 
repair, and maintenance, which is this year's biggest 
requirement--as you look out over the next few years, they are 
going to have to start doing rebuilding. So there is about $2 
billion in our request in 2020 for the military construction to 
support that, and there will be some that follows. But that 
additional support prevents them from basically disrupting 
training, delaying the repair and maintenance of the existing 
facilities, which they would have to do in terms of realigning 
the funds.
    Senator Boozman. Right.
    Mr. Norquist. So we greatly appreciate that support.
    Senator Boozman. But, generally, supplementals come through 
in a short period of time. This is not coming through. What is 
happening now? What is going to be the effect if we do not get 
this done soon?
    Mr. Norquist. So what they end up doing is stopping repair 
and maintenance of other facilities across the country, and 
they start looking at potential training that would have to be 
effected at year-end.
    Senator Boozman. So are we at that point now?
    Mr. Norquist. I believe we are. I believe the Air Force has 
started to implement some of those controls even now.
    Senator Boozman. Very good.

                                SUICIDE

    Like many States, Arkansas is being hit hard by suicide. 
Servicemembers, veterans, military families have all been 
victim. It is a top priority certainly of all of us at the 
committee. I assume it is a top priority at DoD.
    As Acting Secretary of Defense, how are you working 
together with Secretary Wilkie to spearhead the Veteran 
Wellness, Empowerment, and Suicide Prevention Task Force, and 
do you have any updates for us?
    Secretary Shanahan. As for the task force, I do not have 
any specific updates on the task force itself.
    The integration of the Department, we transition people 
between DoD and the VA (Department of Veterans Affairs). That 
is critical. That is a high-priority area for Secretary Wilkie 
and ourselves.
    The collaboration is vital, but also the work that we do in 
the Department.
    I will ask Chairman Dunford just to provide a perspective 
on what has changed over his career because I think he has got 
some unique insights.
    But in the Department, we have fundamentally deployed 
forward more mental health professionals.
    We also know that these issues are not just about mental 
health. It is about being able to get support for people who 
have relationship problems or financial issues. So we have 
really expanded how we address suicide more broadly than just 
simply mental health.
    Chairman.
    General Dunford. Senator, when I first really worked on 
this issue institutionally, I was Assistant Commandant in the 
Marine Corps back in 2010, and at the time, we had a very 
stovepiped approach to delivering mental healthcare. And so I 
think there are probably two things that I think are promising, 
promising developments.
    The first is the multidisciplinary approach to healthcare. 
Now when an individual seeks help, it is not a point-to-point. 
They see the psychiatrist; that does not work. They see the 
psychologist; that does not work. They see a social worker; 
that does not work. There is a multidisciplinary approach where 
an individual is managed by a team that has the appropriate 
skills to deal with that individual's problem.
    The other challenge that we had was I think a 
misinterpretation in some cases of privacy associated with 
medical care in a sense that we did not have the kind of 
sharing of information across command teams, chaplains, medical 
professionals, so that when we had an individual who needed 
help, we could identify that individual and take proactive 
action.
    And I think those two things are among the promising 
initiatives, but I do not think any of us would say we are 
complacent with where we are, either with mental health as a 
whole or specifically with the scourge of suicide.
    Senator Boozman. Thank you, Mr. Chairman.
    Senator Shelby. Senator Schatz.

                                  GUAM

    Senator Schatz. Thank you, Mr. Chairman.
    I will start with General Dunford, and I want to talk about 
Guam. General Neller and I had a good exchange in the 
subcommittee, and we have talked about this on and off for 
many, many years.
    The basic question is some of the assumptions that went 
into the Guam realignment were based on lift and the 
availability of training areas, and that is not currently in 
evidence. And I am wondering whether the Department is 
considering reevaluating the plan, understanding that we have 
an ironclad commitment to the government of Japan to follow 
through on our promise, but we do not have an ironclad 
commitment to do it stupidly.
    If the purpose of having marines forward is to have them 
ready to fight tonight, but they got to wait for a lift from 
San Diego or Honolulu, then it really defeats the purpose and 
starts to look like an illogical plan. I would like you to 
comment on that.
    General Dunford. Senator, I would. In fact, probably just 
by coincidence, the Secretary and I are meeting today at 1600 
on this issue, and I think there are really three main areas. 
And I think General Neller has probably talked to you about it. 
We have the aviation laydown. We have the infantry laydown. We 
have the artillery laydown.
    There are challenges with the training in all three of 
those areas, and so we do have some things to discuss with the 
Secretary today.
    So, as we move forward, as you say, the posture that we 
have, I make one key assumption. That it will be decades as we 
implement the DPRI (Defense Policy Review Initiative), and we 
want to make sure we are going to do it right. So we will talk 
to the Secretary about those two issues today.
    But I think your characterization for the members is fair. 
Two key assumptions, these go back to 2008, 2009. One was that 
we would have, when we moved, significant forces down to Guam; 
that we would have training areas down there for the infantry 
forces that would be there. We have not developed the access to 
those training areas as fast as we want, and of course, given 
the challenges we have in the Pacific, mobility remains a 
challenge. And we have got to look at increasing the capacity 
of mobility in the area.
    But I can assure you it has the attention of the Secretary 
and I, and Secretary Spencer, Secretary of Navy, has had, I 
know, a number of conversations with the Secretary as well.
    Secretary Shanahan. Can I just make one comment on this?
    Senator Schatz. Sure. Go ahead, Mr. Secretary.
    Secretary Shanahan. This has really evolved out of the 
National Defense Strategy, with a focus on China, and we are 
very cognizant of the decisions we are making in terms of 
construction because the last 30 to 50 years. So the timing is 
not coincidental. We just recognize now before we go make these 
investments in construction--let us finalize on what is the 
most effective use of these resources.
    Senator Schatz. Absolutely.
    Let us stay in the Pacific. Admiral Davidson's plans for 
the Indo-Pacific rely, at least in part, on maintaining access 
to the compact states: Micronesia, the Marshalls, and Palau. 
What are we doing to help State and Interior extend the 
agreements, which expire in 2023?
    Secretary Shanahan. I am not current. I will take for the 
record in terms of what we are doing there.
    The value of--you know, at the Marshall Islands and 
Kwajalein are immensely important as we develop our missile 
defense capabilities, working with Admiral Davidson to--just 
like the previous question you had, what is our thinking around 
where we want to put sensors?
    As you know, the importance of these contributions to their 
GDP (gross domestic product) is very significant.
    Senator Schatz. Right. But State has to get on this because 
2023 is coming up, and obviously, the Chinese are doing their 
influence campaign, which has to do as much with sort of 
geopolitics and an investment strategy as anything else. So I 
will take that for the record.
    Secretary Shanahan. Sure. Yes.

                              TYNDALL F-35

    Senator Schatz. But next question, back to Tyndall, the Air 
Force goes through a strategic basing process, and what we are 
hearing--and I do not know that it is true, but what we are 
hearing is that there is a plan afoot to change Tyndall from an 
F-22 base to an F-35 base. And my question is, (A) is that 
true? (B) if so, is this going through the regular order within 
the Department of Defense and within the Department of the Air 
Force? Is this sort of flowing through the regular strategic 
basing process?
    Just to be totally blunt, what we are hearing is that this 
is more of a political process that is being fed from the White 
House down through the Department, and that makes it more 
difficult for us to find our enthusiasm to fund this.
    And I will add one last thing. The base was flattened. 
There is another base 50 miles away. This is, according to the 
Department, the ninth most vulnerable base or installation in 
the United States to severe weather, and now, at least 
apparently because of a political commitment, we are looking at 
spending billions of dollars to rebuild an Air Force base 50 
miles away from another Air Force base, both of which are 
vulnerable to severe weather.
    So can you reassure us that this is being done on a level?
    Secretary Shanahan. I will reassure you on the level in 
terms of rebuilding Tyndall. I mean----
    Senator Schatz. What does that mean? I am asking whether 
this is going----
    Secretary Shanahan. This--yes.
    Senator Schatz. Hold on. I am asking whether this is going 
through the strategic basing process in the regular order or is 
this coming from the White House.
    Secretary Shanahan. On the F-35, I will have to go back and 
look. This is a new development to me in terms of a basing 
decision on the F-22 versus the F-35.
    I do know that we want to preserve our presence in Florida 
because of the value of the test range where we conduct all 
these flying missions.
    Senator Schatz. And you do not think you could fly from the 
base 50 miles away to use that test range?
    Secretary Shanahan. I will get with Dr. Wilson and 
understand how she made that basing decision.
    Senator Schatz. Okay. I will take that for the record.
    Secretary Shanahan. Okay. Sure.
    Senator Schatz. And I will take that as you are not sure 
whether this is being done through the regular order or not.
    Secretary Shanahan. Well, I just want to validate how Dr. 
Wilson made that decision.
    Senator Schatz. Thank you.
    Secretary Shanahan. Yes.
    Senator Shelby. Senator Collins.

                         SOUTH KOREA EXERCISES

    Senator Collins. Thank you, Mr. Chairman.
    General, let me first begin by thanking you for your many 
decades of dedicated service to our Country.
    General, despite the administration's diplomatic efforts 
with North Korea, we still appear to be far apart in reaching 
an agreement on denuclearization.
    In March, it was announced that the Pentagon was canceling 
two additional large-scale military exercises with South Korea 
that were expected to be held this spring. I know that there 
are smaller-scale exercises that are continuing to take place, 
but this cancelation concerns me.
    Do you believe that these smaller training exercises are 
adequate to maintain the readiness of our troops and allies, 
especially as tensions remain with North Korea's recent short-
range missile test this past weekend?
    General Dunford. Senator, I will start by saying I am 
absolutely confident that the training program we have in place 
right now will allow us to do what we talk about in when United 
States Forces Korea, which is ``Fight Tonight.'' And I speak 
for General Abrams on the peninsula and Admiral Davidson.
    We did revise the training program on the peninsula. We 
used to conduct large-scale exercises for two reasons, one, 
very high profile to deter North Korea, and the other is to 
maintain proficiency and conduct training.
    We have found other ways to do the training, and we have 
gone through each and every mission-essential task of U.S. 
Forces Korea and Combined Forces Korea and put together a new 
program that is focused on the mission-essential task and with 
admittedly a smaller profile in terms of deterrence to support 
the diplomatic track.
    But I would tell you I am completely confident right now 
that the program that we have in place between exercise and 
training will allow us to maintain proficiency at the right 
levels.

                                F-15EXS

    Senator Collins. Let me turn to a different issue. Many of 
us, in light of the Air Force's testimony last year, were 
surprised to see funding for F-15EXs in the budget. That seems 
contradictory to what the Air Force said that it needs. Are you 
concerned that allocating funds to fourth-generation fighters, 
the F-15EXs, will prevent the Air Force from buying a 
sufficient number of F-35As needed to get to a 50 percent 
fifth-generation fleet in time to meet the threats from Russia 
and China?
    General Dunford. Senator that is a great question, and this 
is an issue I looked at pretty hard.
    There were a number of variables that went into that 
decision. If I could, I would just walk you through those and 
then answer the question about the F-35 ramp specifically.
    First, how much money we were going to spend overall in 
tactical aviation; second, how many platforms we needed to 
have, capacity of the total fleet. Third was how much 
ordinance, of what type we had to carry; and then the F-15C, 
which was not going to make it past the mid-2020s.
    In our competitive area of study--so this was a joint 
study. This was not a programmatic decision. This supported the 
Air Force's decision. We looked at a mix of fourth- and fifth-
generation aircraft during that period of 2025 to 2035 to be 
the right mix of aircraft because of the way the F-15EX could 
complement the fifth-generation fighter. So we felt like a 
fifth-generation, fourth-generation mix would allow us to meet 
the war plan requirements. And by the way, we will still be 
plying F-35s as fast as we can.
    Senator Collins. Thank you.

                       ISRAEL AND MISSILE DEFENSE

    Secretary Shanahan, last weekend, nearly 700 rockets were 
fired by militant groups in Gaza into Israel, which 
demonstrates the continued importance of the United States in 
Israel working together to deploy a multi-tiered missile 
defense system.
    We have put, year after year after year with the support of 
virtually all of this committee under the leadership of our 
chairman, significant resources behind programs such as Iron 
Dome, Arrow, and David's Sling. Do you see opportunities to 
increase our missile defense cooperation with Israel?
    Secretary Shanahan. I do, and those investments, Arrow in 
particular--the Iron Dome, I think we are going to buy two 
batteries of Iron Dome. So when you think about this is 
tactical missile defense, a capability that they have been able 
to deploy and mature has broader use than just in Israel.
    I think the collaborative work between Missile Defense 
Agency and the Israeli Defense Forces has enormous benefit in 
the future, and I would continue to invest in that capability.
    Senator Collins. Benefits both countries.
    Secretary Shanahan. Yes, absolutely.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman. I have additional questions, which 
I would like to submit for the record.
    Senator Shelby. Thank you, Senator.
    Senator Feinstein.

                         NUCLEAR MODERNIZATION

    Senator Feinstein. Thanks very much, Mr. Chairman.
    Gentlemen, I would like to talk a little bit about the 
nuclear provisions in the budget. As you know, the New START 
Treaty limits both Russia and the United States to 1,550 
deployed warheads atop 700 deployed launchers. It is my 
understanding that both nations have met the treaty's limits in 
February of 2018, as required by the agreement.
    A CBO (Congressional Budget Office) report in February 
estimates that the United States will spend $494 billion on 
nuclear weapons from fiscal year 2019 through fiscal year 2028. 
That is an increase of $94 billion, or 23 percent from the 
CBO's previous 10-year estimate of $400 billion, which was 
published in January of 2017.
    Now, the President's budget contains $10 million to finish 
production of a low-yield variant of a submarine-launched 
ballistic missile, and in 2019, we appropriated $65 million for 
the program. The budget also includes $5 million to study the 
development of a new sea-launched cruise missile.
    The nuclear modernization continues. The request includes 
$2.2 billion for the Navy program to build 12 Columbia-class 
ballistic missile submarines, and the Air Force is seeking $3 
billion to continue development of the B-21 Raider and $713 
million for the long-range LRSO (Long Range Standoff Weapon) 
program. And it goes on and on.
    We are at our limit under the treaty, and my understanding 
is that the President has an interest of beginning some 
negotiations with both China and Russia. And my question is, 
Where are we going with the nuclear program? The monies are so 
increased now that what they project to me is that there is a 
new interest in going beyond the New START Treaty level, and I 
would like to ask if you would be willing to engage in some 
conversation on that subject.
    I am from the generation of the Daisy, if you remember, and 
at the very end of World War II, when all that happened and all 
the fears, and have some concern that we go back to the kind of 
nuclear development that becomes easier and easier to use.
    Secretary Shanahan. Senator, Chairman and I will tag team 
this, but maybe I can answer your question in three segments.
    Senator Feinstein. All right.

                              ARMS CONTROL

    Secretary Shanahan. Arms control is vital. I mean, the New 
START Treaty expires in February of----
    Senator Feinstein. 2021.
    Secretary Shanahan. Of 2021. And we need to continue to 
make progress on that. The provisions of the treaty allow for 
an extension up to 5 years. So there is a backstop, if you 
will, if we do not make the progress to that February 2021 
timeline.
    The New START Treaty does not address new capabilities. So 
when we look at the weapons, some of the new weapons Russia is 
developing in their modernization program, we still have to 
address those.
    More broadly, though, we do need to deal with arms control, 
and when we put those original treaties in place, there was not 
a China who was making a significant investment in nuclear 
weapons.
    The unfortunate situation is that the life of our existing 
nuclear triad is becoming obsolete. We are the end of life, and 
without the certainty of some of these treaties, now is the 
time we have to be making investments to do the modernization.
    So when you look at nuclear capabilities as being the 
number one modernization effort of Russia and what the Chinese 
are doing, now is not the time to unilaterally disarm. So----
    Senator Feinstein. But both we and Russia--I do not mean to 
interrupt you.
    Secretary Shanahan. Yes. Right, no.
    Senator Feinstein. But we are constrained at that number of 
1,550----
    Secretary Shanahan. Yes. That is my understanding.
    Senator Feinstein [continuing]. And applying it.
    Secretary Shanahan. Right.
    Senator Feinstein. And that will be the case, then, of 
2021, if I understand that.
    Secretary Shanahan. Right.
    Chairman.

                        NUCLEAR POSTURE REVIEWS

    General Dunford. Senator, this is really an important 
point.
    First, I understand your concerns, and I would just say 
that, number one, the capabilities that we are fielding in the 
doctrine that we have is to reduce the probability for the use 
of nuclear weapons, and we do that informed by Russia.
    As you know, we now have had three Nuclear Posture Reviews 
across two administrations that have had very consistent 
findings in those recommendations, and by and large, with the 
exception of the low-yield missile that you mentioned, there 
has been consistency across all three.
    You mentioned the 1,550, but there is also 2,500 
nonstrategic weapons that the Russians maintain as well, and 
when we look at Russian doctrine and look at capability, we 
do--and I will not take too much time now, but we do see 
scenarios where the Russians believe that they may potentially 
be able to use those nonstrategic nuclear weapons in Europe and 
then put the United States in a position where we only have an 
opportunity to respond with either strategic nuclear weapons or 
not respond at all.
    So the low-yield nuclear weapon is actually designed to 
make sure that the Russians are convinced that there is 
absolutely no circumstances under which the use of nuclear 
weapons could result in a strategic advantage for them.
    Senator Feinstein. So how does that justify this increase 
in spending, the $2.2 billion for the Navy program of the 
Columbia-class ballistic missile submarines and the Air Force 
$3 billion and $713 million for the long-range LRSO and the 
Minuteman III?
    General Dunford. Senator, first----
    Senator Feinstein. So what you are doing is developing more 
low-class options?
    General Dunford. We are developing a low-yield option to 
ensure that we have deterrence across the spectrum.
    But I would--just to put the cost in some context, again, 
we are implementing the results of our Nuclear Posture Review 
at the peak for the most important mission in the Department, 
which is to deter a nuclear war. At the peak, it will be about 
6 percent. So that is the peak of procurement. It will be about 
6 percent of the Department's total obligation authority.
    And, Senator, no question, we should seek to drive the cost 
down as low as we possibly can, but in context, for the most 
important mission the Department has, having a safe, reliable, 
and credible nuclear deterrent is really what we seek to do.
    Senator Feinstein. Just so I understand this, you are in 
essence saying that you are going for this large expenditure. 
It is an increase of $94 billion over the CBO's prior 10-year 
estimate of $400 billion, and those are the numbers that you 
are going to follow? It is going to be that kind of an 
increase?
    General Dunford. Senator, I am not able to talk to the 
CBO's numbers there.
    The percentage that I just gave you of our total obligation 
authority is an accurate number, and I would be happy to take 
for the record the baseline that CBO is using and what they are 
basing their projections on.
    But what I can assure you is that this program is the one 
that has been supported again by three Nuclear Posture Reviews 
in a row, and by delays in modernization of the nuclear 
enterprise, that we should have started this decades ago. And 
we now find ourselves with literally the description of the 
biowave of modernization where all three legs of the triad and 
the nuclear command and control capability all have to be 
modernized at the same time.
    Senator Feinstein. Thank you. Thank you.
    Senator Shelby. Senator Hoeven.

                             NUCLEAR TRIAD

    Senator Hoeven. Thank you, Mr. Chairman.
    Secretary and General, is not it vital that we continue to 
invest in our nuclear mission in order to continue to make sure 
that we modernize it and in fact deter Russia and China as they 
continue to invest in their nuclear capabilities?
    Secretary Shanahan. The modernization is vital, as you see 
Russia modernizing and China. Now is not the time to disarm.
    Senator Hoeven. General.
    General Dunford. Senator, I could not agree more. That is 
the effort that the Department has under way right now is to 
make sure that we have a safe, reliable, and a credible nuclear 
deterrent well into the future.
    Senator Hoeven. And that means the nuclear triad, all 
three?
    General Dunford. That means the nuclear triad, and an 
important element to that is the nuclear command and control 
capability as well.
    Senator Hoeven. And do you feel that we are undertaking 
that nuclear modernization plan adequately to deter major 
adversaries like China and Russia that are making big 
investments in their nuclear capability?
    General Dunford. Our initiatives are completely informed by 
the Nuclear Posture Review that told us what it would take to 
deter the use of nuclear weapons by an adversary, and 
obviously, Russia and China, as you highlight, are the two most 
significant nuclear adversaries we face, but not the only.
    Senator Hoeven. Mr. Secretary.
    Secretary Shanahan. I fully agree with that. The nuclear 
triad has proven effective over seven decades. This is really 
about modernization more than it is about delivering new 
capability or changing our doctrine.
    Senator Hoeven. So the reality is we become less secure if 
we do not make these investments to upgrade and modernize our 
nuclear systems?
    Secretary Shanahan. Yes, Senator.

                  RESERVE AND GUARD EDUCATIONAL PARITY

    Senator Hoeven. Along with Senator Leahy and Senator 
Boozman, I have introduced the Montgomery GI Bill Parity Act, 
which would allow members of the Reserve and Guard to utilize 
both the educational benefits under the GI Bill as well as the 
tuition assistance program, which active-duty members can now 
do.
    And I would ask for your support for that legislation, both 
Mr. Secretary and General Dunford.
    Secretary Shanahan. Yes, sir.
    Senator Hoeven. Okay. Both are committed to supporting 
that?
    Secretary Shanahan. We will review the language, and I am 
happy to----
    Senator Hoeven. Yes. And I've found particularly for Guard 
members, that educational benefit is a huge factor in 
recruiting them, particularly a lot of these really high-tech 
people we need in some of these missions and retaining them. 
It's incredibly important.

             INTELLIGENCE, SURVEILLANCE AND RECONNAISSANCE

    General Dunford, in regard to the Arctic, Secretary of 
State Pompeo, as you know, was in Finland. He talked about the 
very aggressive posture of Russia and Chinese activities in the 
Arctic. Clearly, we need to do more.
    Do we have sufficient ISR (Intelligence, Surveillance and 
Reconnaissance) capability in the Arctic? And I am specifically 
talking about things like Global Hawk. Grand Forks Air Force 
Base, North Dakota, has a Global Hawk mission, has incredible 
reach, incredible potential to cover in the Arctic. Are we 
making the investment we need to, and is that the right kind of 
investment to make sure we are covering the Arctic?
    General Dunford. Senator, first, we are making the right 
kind of investment.
    But, in candor, I have to tell you that I do not think any 
combatant commander would tell you today that they have 
sufficient intelligence, surveillance, and reconnaissance.
    We are probably meeting on a day-to-day basis. The 
recommendations that I make to the Secretary probably meet 
somewhere between 30 and 40 percent of what the combatant 
commanders need. So there is a strong demand signal for 
additional ISR, and what we do for the Secretary is make 
recommendations of how to best allocate the ISR that we have 
today. And then, as you will see, we make continued investments 
in the future.
    And one of the reasons why we have invested more in space 
is that will be a significant enhancement to our overall 
intelligence, surveillance, reconnaissance capability.
    Senator Hoeven. Mr. Secretary, do you have anything to add 
on that?
    Secretary Shanahan. Two things. We will never have enough 
ISR. I mean, I think just given the current capabilities that 
we have.
    Senator Hoeven. Incredible demand for it.

                   COUNTER UNMANNED AIRCRAFT SYSTEMS

    Secretary Shanahan. The Chairman made mention of this, but 
I will just maybe even make it more broadly. Space will enable 
unbelievable amount of Earth observation. So by 2025--I mean, 
these are estimates--commercially--and this is where we need to 
really tap into commercial innovation--there will be persistent 
surveillance of the globe by 2025. And so how we do ISR will 
completely change as we leverage space and its capabilities.
    Senator Hoeven. Final question, then, is for counter UAS 
(unmanned aircraft systems) capability. Again, being on the 
border, we have 900 miles of border responsibility out of Grand 
Forks. We have not only Grand Forks Air Force Base with ISR, 
RQ-4, but we also have Customs and Border Protection there 
flying both manned and unmanned aircraft. What about countering 
the anti-UAS effort?
    We just passed legislation, Preventing Emergency Threats 
legislation for DHS. Where are we in terms of your effort to 
counter some of the drone activity?
    Secretary Shanahan. Yes. I have spent considerable time 
with General O'Shaughnessy in Northern Command because when we 
think about this emerging threat--and I really do think of 
these UAVs as something that is low cost; it is easy to 
manipulate--we need to develop the capabilities and the rules 
because, quite frankly, this airspace is shared by so many 
different authorities. So it is as much about rules to operate 
in space as it is the technologies to defeat them. It is a high 
priority for the Department.
    We have deployed a lot of capabilities OCONUS (Outside the 
Continental United States). So in terms of evolving the ability 
to detect and defeat, we are progressing as a Department. Now I 
think it becomes how do we work with the FAA (Federal Aviation 
Administration), how do we share the airspace so we can defeat 
this emerging threat.
    Senator Hoeven. Right. And DHS because--well, battlefield 
and homeland.
    Secretary Shanahan. Absolutely.
    Senator Hoeven. Thank you.
    Secretary Shanahan. Thank you.
    Senator Shelby. Senator Baldwin.

                            INDUSTRIAL BASE

    Senator Baldwin. Thank you, Mr. Chairman.
    Secretary Shanahan, President Trump stated in the National 
Security Strategy that a healthy defense industrial base is a 
critical element of national security, and that the industrial 
base is dependent on the ability of the Nation's workforce and 
industries to surge at a time of need.
    Additionally, the Department of Defense issued an 
industrial base report last fall, which expressed some 
concerns, and I quote, ``Currently, the industrial base faces 
an unprecedented set of challenges . . . decline of critical 
markets and suppliers, unintended consequences of U.S. 
Government acquisition behavior, aggressive industrial policies 
of competitor nations, and the loss of vital skills in the 
domestic workforce.''
    Do you agree with these statements and concerns?
    Secretary Shanahan. I do.
    Senator Baldwin. I too believe that a solid industrial 
defense base should be a national priority, and from both an 
economic and security perspective, I think we can no longer 
afford to be dependent upon foreign suppliers for critical 
defense components.
    However, as we have been having our subcommittee hearings, 
the services have testified in support of budgets and 
acquisition plans that perhaps give short shrift to this 
national priority and the administration's focus on supporting 
a healthy U.S. workforce as a national security priority.
    I know from my own Wisconsin experience that these workers 
are patriotic Americans who believe that their work in the 
industrial base is a service to their country.
    So, Mr. Secretary, can you commit to working with me to 
support policies, strategies, and solutions that both 
strengthen the industrial base and national security and 
particularly those that support American workers?
    Secretary Shanahan. Senator, happy to do that.
    Maybe I can just comment on the report that you referred 
to. There was a classified annex to the report that we put 
forth, and in that classified annex, we identified the risks. 
As you highlighted, some of them are capacity that is overseas 
that we need to move onshore. Some of it identified where we 
have only a single source of supply, where we have to find 
another source, and we also found companies that were 
underinvested and did not have the investment capital to 
replace old infrastructure.
    That classified annex, we identified the most significant 
risk, and then we have put money against those items so that we 
can actually address some of those shortfalls.
    I recognize the importance of our workforce. I would be 
happy to work with you.
    Senator Baldwin. Great.
    And thank you for pointing out the annex. I will look 
forward to an opportunity to review that in more detail and 
continue to work together.

                                  IRAN

    General Dunford, is it accurate to say that the mission of 
the 5,200 servicemembers in Iraq is to train and work with 
Iraqi forces in the counter-ISIS mission?
    General Dunford. That is partially accurate, Senator. The 
most important thing that we are doing in the region is 
conducting counterterrorism to protect the homeland and protect 
the American people, but part of our mission in doing that is 
to enhance the capability of the Iraqis to consolidate the 
gains that were made as we cleared ISIS over the past 2\1/2\ 
years.
    Senator Baldwin. Yes. So not Iran, in other words.
    Are you aware of any evidence that would make Iran or the 
IRGC an associated force of al-Qaeda?
    General Dunford. Senator, we probably could not talk about 
that in this venue.
    Senator Baldwin. Okay. I will try another question.
    Secretary Pompeo went to Iraq to discuss a new threat 
stream from Iran. It seems to me, at least at first glance, to 
be a completely separate bucket of threats from the ISIS threat 
and counterterrorism threat that our current military mission 
is addressing under the 2001 AUMF. Can you say anything about 
this new threat stream from Iran and whether you would view it 
in the same bucket, if you will, that the 2001 AUMF would 
cover?
    General Dunford. Sure, Senator. One, I do not view that 
threat stream as being the same as ISIS, but our posture in the 
region has been deter, to deter Iran, really going back to 
1979.
    And so when Secretary Pompeo raised the visibility of the 
threat streams that we had seen, really intensify late last 
week, what we were attempting to do, both with the movement of 
force elements that the Secretary approve and the public 
messaging, was to deter any potential action by the IRGC or 
Iran as a whole.
    Senator Baldwin. While on Iran and this topic and the IRGC, 
General Dunford, were you consulted prior to the administration 
designating the IRGC as a terrorist organization?
    General Dunford. Senator, I had an opportunity to provide 
military advice.
    Senator Baldwin. And did you agree with this designation?
    General Dunford. Senator, if I could, because it is 
military advice that I provided, if I could provide that--I 
would be happy to provide that to you but maybe not in an open 
venue.
    Senator Baldwin. What risk do you see the reciprocal 
response by Iran posing to U.S. servicemembers?
    General Dunford. We are watching that very closely, and 
that is what was related to the threat streams that we started 
to see last week. And, again, what we are trying to do is 
mitigate that risk with a very effective deterrent posture as 
well as messaging.
    Senator Baldwin. Thank you.
    Senator Shelby. Senator Graham.

                        EFFECTS OF SEQUESTRATION

    Senator Graham. Thank you, Mr. Chairman.
    What would the effect by on the military if we went back 
into sequestration?
    Secretary Shanahan. I think it would be devastating.
    Senator Graham. Do you agree with that, General Dunford?
    General Dunford. I do, Senator.
    Senator Graham. Based on this conversation, it seems like 
the world is still a pretty dangerous place, right?
    General Dunford. It is certainly my judgment that it is, 
Senator.

                                 SYRIA

    Senator Graham. Okay. Let us talk about Syria. The Syrian 
stabilization force, how is that coming, General Dunford?
    General Dunford. Senator, it is coming along well in terms 
of the tasks we are trying to provide. As you know well--and we 
appreciate your help in this regard--we are training the Syrian 
Democratic Forces. We have sufficient U.S. and coalition forces 
right now to perform that mission, and the State Department has 
taken the lead on developing governance in those areas that 
have been clear devices as well.
    Senator Graham. Well, I think you have got a great plan, 
and to our allies, if General Dunford or others ask you to 
help, please say yes because Europe was ravaged by ISIS attacks 
emanating from Raqqa, Syria. So it is your fight too.
    So I am hoping that our European allies will invest in the 
stabilization force not only for Syria's protection, but for 
their own protection and ours.
    Idlib. President Trump said in September 2018, a tweet: 
President Bashar al-Assad of Syria must not recklessly attack 
Idlib Province. The Russians and Iranians would be making a 
grave humanitarian mistake to take part in this potential human 
tragedy. Hundreds of thousands of people could be killed. Do 
not let that happen.
    Do you agree that should still be our policy?
    General Dunford. It is. It is still our policy, Senator, 
and I think you probably know Secretary Pompeo is meeting with 
Foreign Minister Lavrov twice in a period of 7 days, and I know 
that will be part of his message.
    Senator Graham. So are you concerned about increased 
military activity by Assad against the people of Idlib?
    General Dunford. We have in recent weeks seen increased 
activity around Idlib.
    Senator Graham. Okay. Well, I hope the President will 
actually retreat, and I appreciate what Secretary Pompeo is 
doing.

                              AFGHANISTAN

    Afghanistan. Secretary Shanahan, do you agree that the 
reason we have troops in Iraq is to protect the American 
homeland from a rise of radical Islam?
    Secretary Shanahan. I agree with that.
    Senator Graham. Okay. Do you agree that ISIS-K is getting 
larger and not smaller in Afghanistan?
    Secretary Shanahan. I do.

                       COUNTERTERRORISM PLATFORM

    Senator Graham. Do you agree that a counterterrorism 
platform is needed for a while to come in Afghanistan?
    Secretary Shanahan. Until the reduction of violence in 
Afghanistan is no longer a situation.
    Senator Graham. Do you agree?
    Secretary Shanahan. Yes.
    Senator Graham. Right. It is in our national security 
interest----
    Secretary Shanahan. It is.
    Senator Graham [continuing]. To have a counterterrorism 
platform.
    Do you agree that we will never get a peaceful resolution 
until Pakistan denies the Taliban safe haven?
    Secretary Shanahan. I believe Pakistan plays an important 
role.
    Senator Graham. Do you agree with that, General Dunford?
    General Dunford. I do, Senator.
    Senator Graham. Okay. Libya. Is it the policy of the United 
States in Libya to support a peaceful resolution of the 
dispute, not a military solution?
    Secretary Shanahan. Correct. That is the policy.
    Senator Graham. Is that true, General Dunford?
    General Dunford. It is, Senator.
    Senator Graham. Are we picking one side over the other?
    Secretary Shanahan. No.
    Senator Graham. Do we still support the UN-recognized 
government?
    Secretary Shanahan. We support a diplomatic solution to 
Libya.
    Senator Graham. I would recommend that you have the 
President or someone call the prime minister of Libya to let 
him know that the Haftar phone call was not picking sides. Do 
you agree that would be smart? There has been confusion?
    Secretary Shanahan. Yes. Communication is vital.
    Senator Graham. Okay, good.
    Do you agree with that, General Dunford?
    General Dunford. Yes, Senator.
    Senator Graham. Okay. We are almost done.
    [Laughter.]

                          IRAN NUCLEAR PROGRAM

    Senator Graham. Iran. If they restart their nuclear 
program, reprocessing, would you consider that a threat to the 
United States, of nuclear fuel?
    General Dunford. Senator, when we look at Iran, we see four 
threats that exist and one potential threat. So, certainly, a 
nuclear-armed Iran would be a threat to the United States along 
with the use of proxies, the maritime threat, the cyber threat, 
and--and maritime thread.
    Senator Graham. Do you agree with that, Secretary Shanahan?
    Secretary Shanahan. I do.
    Senator Graham. So I think if Iran restarts their nuclear 
program, we should consider that a hostile act and put all 
options on the table.
    Finally, about Iran, when we sent American troops to Iraq 
and Afghanistan to protect our Country and our allies from the 
rise of ISIS, do we owe it to them to protect them from all 
threats?
    Secretary Shanahan. We do.
    Senator Graham. Under the law of war, is it appropriate for 
a lawful force to defend itself against all threats, General 
Dunford?
    General Dunford. That is consistent with LOAC (Law of War 
Manual).
    Senator Graham. So if the Iranians have designs on 
attacking our troops in Syria and Iraq, they are there to 
protect American homeland against the rise of radical Islam 
like ISIS. We would have the ability to defend ourselves, if 
necessary; is that correct?
    General Dunford. Our forces deployed, make no mistake about 
it, Senator, have the ability to defend themselves and everyone 
else on----
    Senator Graham. In case the Iranians are listening, they 
attack American forces in Iraq and Syria or any other place at 
their own peril?
    General Dunford. Our forces have the ability to respond 
immediately, and they do not need to come back to Washington to 
ask permission.
    Senator Graham. And you will make sure they are defended?
    General Dunford. We will make sure they are defended, 
Senator.
    Senator Graham. Thank you. Thank you both.
    Senator Shelby. Senator Murray, you are just in time.

                             SEXUAL ASSAULT

    Senator Murray. Thank you. Apologize, Mr. Chairman, and I 
know you all have been here for a while.
    I just wanted a chance to ask you a couple of questions.
    Mr. Secretary, thank you for meeting with me yesterday.
    I wanted to ask you about the military sexual assault 
issue. We chatted a little bit yesterday about that, but the 
results of the new report really is disturbing to me. And the 
Department's survey found that more than 6 percent of women 
servicemembers have been sexually assaulted. When you include 
the men, that translates to about 20,500 servicemembers who 
have been assaulted, and I have long pushed, as you know, the 
Department to do more and have advocated for additional 
funding, new programs, including legislation to create the 
Special Victims Counsel program.
    For years, we have heard from the Department that the 
services have this under control; everybody is going the right 
thing. But I just cannot sit here today and continue to read 
these reports and say that I have confidence in the 
Department's ability to put an end to this abhorrent behavior.
    So I wanted to ask you how are going to address this 
problem and what the military is going to do. I mean, we keep 
hearing from everyone--you said it to me yesterday--leadership 
and all this, but it is not working.
    Secretary Shanahan. Senator, first of all, thank you for 
the time yesterday because I did a little homework between our 
meeting, and I want to talk about that, that homework, just so 
I can put some context or to dimensionalize the situation and 
then talk about the actions that we are taking.
    Also, thank you for asking the question because I think it 
is really important that we talk about what is working because 
there are many things that are working, and I think if we look 
back over time--and this was the implementation of 
recommendations from Congress--there are things that have 
improved, and then there are things that are not working. So 
maybe I can talk about what is not working and what we are 
focused on to address that.
    There is kind of two aspects to our focus. One is on the 
largest population, the problem, and then also the system 
itself. Maybe I can just talk about the report.
    So when we talk about the 20,000, I think you said----
    Senator Murray. 20,500.
    Secretary Shanahan. Assaults. That is an estimate. So that 
is not what is reported.
    In 2018, what was reported is the number of sexual assault 
cases that were dispositioned, there were 4,002 of those.
    What the Department does is a survey, and that survey is to 
really get after the hidden side of this. The actual number of 
cases do not capture everything that is happening. So there is 
a survey that goes out to all the members, and then they 
evaluate. It is not all the members, but a very, very 
significant population of the 2.1 million people.
    In that, they develop what is called a ``prevalence rate,'' 
and that is a factor, then, they apply to the number of cases 
that are reported. So they took that factor and applied it to 
the 4,002. That is how they derive the 20,000.
    And in that 20,000, the biggest population that has 
experienced the growth is women between 17 and 24, and that is 
where if we said we want to really drive the numbers that is 
what we would focus on.
    And what we know about that population and these incidents 
is that it is peer on peer. That 85 percent of the victims knew 
the accuser, and nearly two-thirds involved alcohol. So for us 
as a Department, the climate and the environment, that is where 
we need to be concentrated.
    When we look at the system, if you evaluate the report, of 
the 4,002 cases, about 29 percent of those were not within our 
jurisdiction. So if we look at how many cases we did and 
disposed of in 2018, there was something on the order of a 
little bit more than 2,800.
    Where there was sufficient evidence, we took action 100 
percent of the time against the accused. Over half of those 
were court-martials, and the other half were other types of 
judicial action.
    We know we need to continue to improve the system itself, 
so that whether it is our ability to collect evidence, whether 
it is resources, accountability of commanders, or potential 
retaliation, that is also part of our focus.
    Senator Murray. Okay. Well, I am not here to parse numbers, 
and I hope nobody is. But I would just say these reports are 
relevant over years, and there is an increase in numbers rather 
than a decrease, when the military has been focusing on this 
for a long time. So whatever has been happening is not working, 
and I am beginning to think that, although I have not supported 
it before, we need to put controls on oversight out of the 
Department because we just cannot accept this.
    As I said to you yesterday, you do not want your daughter 
going into the military if a high percent of women are victims 
of sexual assault, and something is not working. So I am deeply 
concerned, and I will continue to follow this, as I know a 
number of members will.
    Secretary Shanahan. And we will work with you, and we do 
not accept the results. And we know we have to do better.
    Senator Murray. Okay. Thank you.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Udall.

                         NEAR-PEER COMPETITORS

    Senator Udall. Thank you, Mr. Chairman, and thank you both 
for your service to the country.
    The most recent Quadrennial Defense Review finds that the 
near-peer competitor nations like China and Russia are the top 
national security priority. This committee will need to find a 
way to pay for a huge increase in spending coming in the '20s 
to replacing aging legacy equipment across the branches, 
including our strategic forces.
    And since 2001, we have spent trillions on wars in Iraq and 
Afghanistan. One analysis found that it cost over $5 trillion, 
more than $23,000 for every American taxpayer. Those forever 
wars have helped put us in a huge budget hole.
    During this time, China and Russia have been watching our 
capabilities and working to meet or exceed our comparative 
advantage.
    Do you still agree that those near-peer competitors are our 
biggest national security threat? It is a simple kind of yes or 
no answer.
    Secretary Shanahan. Yes.
    Senator Udall. General Dunford.
    General Dunford. Yes, Senator.
    Senator Udall. And while some in the administration are 
talking about inserting the U.S. military into at least two new 
additional conflicts, referring to Iran and Venezuela, the U.S. 
is still involved in Afghanistan, 17 years later. The President 
has said that ``Great nations do not fight endless wars.'' That 
is his quote: ``Great nations do not fight endless wars.''
    Senator Paul and I have introduced legislation to honor 
those who fought and to bring our troops home. Do you 
anticipate U.S. forces coming home from Afghanistan anytime 
soon, or are we looking at an indefinite garrison-type 
situation? How would you explain our current policy and the 
conditions for U.S. withdrawal to the American people in a 
clear and simple way?
    Secretary Shanahan. Our current policy remains the South 
Asia Strategy. Our best chance for peace--and this is probably 
the best in 40 years--is taking place right now. I would say 
our policy is to fight and talk. We are fighting the Taliban to 
pressure them into a reduction in violence.
    Senator Udall. Which we have been doing for a long, long 
time.
    Secretary Shanahan. We have been. I think we are making 
progress.
    Senator Udall. I think the numbers are that they control 
half the country right now.
    Secretary Shanahan. The critical population areas, they do 
not control. I would not change territory with them. I think 
the areas where we have presence is of greater value and 
importance to the Afghan people.
    General Dunford. Senator, if I could address this. I do not 
think anybody would want to withdraw our forces from 
Afghanistan or the broader Middle East more than me, but I will 
share with you the advice that I have provided now to two 
Presidents.
    We had significantly reduced our commitments in 
Afghanistan. When I commanded in Afghanistan, we had over 
100,000 Americans. We had another 30,000 NATO (North Atlantic 
Treaty Organization) forces. We are down to about 15,000 
Americans and 7,000 NATO forces.
    It is my judgment today, based on the threat from South 
Asia, that we need to continue to put pressure on those 
terrorist groups or they will pose a threat to the United 
States.
    I know it is frustrating to you and the American people for 
us to be there for such a long period of time. It is just my 
judgment right now that the conditions for a complete 
withdrawal are not there.
    The conditions for continuing to decrease our presence in 
the region, as we have, and increase the responsibility of, in 
this case, the Afghan forces to provide security for 
themselves, I think we can expect that to happen.
    And I would echo the Secretary. While I am not anything 
other than realistic about the current negotiations we have in 
the peace process, it is the first time in many, many years 
where we have had some opportunity now to pursue a peaceful 
resolution to the war in Afghanistan, and at the end of the 
day, I do not believe there is a military solution. And I think 
we will need to maintain a counterterrorism presence as long as 
an insurgency continues in Afghanistan.

                                 BORDER

    Senator Udall. Mr. Shanahan, you recently said, and I quote 
here, Mr. Secretary, ``We really need to get back to our 
primary missions and continue to generate readiness.'' Your 
statement echoes General Robert Neller of the Marine Corps when 
he warned that a series of, ``unplanned and unbudgeted tasks'' 
that included deployment to the border where there is no 
emergency constituted a, ``unacceptable risk to Marine Corps 
combat readiness and solvency.''
    Would you both agree that it would be better for military 
readiness and defense budgeting to keep our troops and DoD 
funds out of the highly charged political controversy about 
border security and immigration policy?
    Secretary Shanahan. Let me just address my quote. My quote 
was working with Chairman Dunford, we want to enable DHS to be 
able to manage their situations so that we do not need to 
provide continuing support.
    General Neller wrote a memo that said unless certain funds 
are provided to him, he will have to backfill them himself. His 
message there was really around hurricanes, not around 
deployment to the border. It was not having any impact on him.
    We do need to solve the situation at the border. I mean, it 
is a humanitarian issue, and it is also a security issue. The 
sooner we address that, I think the better off we will all be.
    Senator Udall. General Dunford, do you have a comment on 
that?
    General Dunford. Senator, the politically charged 
environment that you speak about Assad, I will just speak about 
it from an apolitical military perspective.
    We have had an historic role in supporting civil 
authorities--and the Department of Homeland Security 
specifically. It goes back many years. Certainly, we would want 
that capacity that we backfill to be smaller than it is right 
now. DHS has some legitimate shortfalls.
    The Secretary and I have both visited the border. It is 
very clear to me that right now the Department of Homeland 
Security does not have the capacity to do their job.
    What I can assure you is four things. One, everything that 
our men and women are doing on the border is legal. Number two, 
they have the proper training. They have the proper equipment, 
and they have very clear instructions about what they are 
doing. And I will continue to make sure that is the case.
    Senator Udall. From a border perspective and being a border 
Senator, I mean, I do not feel that Mexico is our enemy. I 
think these asylum-seeking migrants largely from Central 
American countries pose--I do not think they pose a serious 
national security threat.
    I think we do have a humanitarian threat. We should be 
focusing on that and really come to the table and talk about 
that, but I really think you all should be focused on our 
national security threats, which we have many, and there are 
some out there that are talking--at least you are not doing 
that here today--about getting us into other wars.
    So that is where I am coming from. I really appreciate your 
testimony today, and thank you very much for your service.

                         AFGHANISTAN WITHDRAWAL

    Senator Shelby. General, just for the record here, tell us 
again, in your judgment, what would happen in Afghanistan if we 
made a precipitous withdrawal.
    General Dunford. Senator, there is about 20 groups in the 
region that I would describe as violence extremist groups. A 
handful of those groups have clearly demonstrated the intent to 
attack the homeland and to attack American citizens.
    I firmly believe that the pressure that our 
counterterrorism efforts have put on those groups over the last 
years have prevented another 9/11. Difficult to prove, but from 
the time I have spent in Afghanistan, I have been a commander 
there, and I am confident. And if you want to think about this 
in terms of term insurance, once you stop paying the premium, 
you no longer have insurance, and what we are doing in 
Afghanistan today, in my judgment, is a commensurate level of 
effort to the threat.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Shelby. Thank you for your appearance, Mr. 
Secretary and General Dunford.
    We also know that I along with others are going to submit 
additional written questions for you, and we hope you respond 
to them within 30 days.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted to Hon. Patrick M. Shanahan
            Questions Submitted by Senator Richard C. Shelby
                        space development agency
    Question. Secretary Shanahan, the unclassified report on China's 
military power that you sent to Congress last week states that ``the 
PLA continues to develop capabilities to conduct space (and) 
counterspace . . . operations.'' In this unclassified setting, please 
describe what you are seeing, and what the United States is doing in 
response, including the organizational changes the Department is 
making.
    Answer. Chinese military writings indicate the People's Liberation 
Army views space superiority as key to fighting and winning modern 
wars. China has enacted military reforms to better integrate 
cyberspace, space, and electronic warfare into joint military 
operations and continues to improve its counterspace arsenal. Specific 
counterspace capabilities assessed to be under development in China 
include satellite communications jammers, synthetic aperture radar 
jammers, high-powered lasers, offensive cyber tools, co-orbital 
systems, and ground-based antisatellite missiles. With the support of 
Congress, the Air Force has significantly increased investment in the 
space budget for three consecutive years and is proposing additional 
investment in fiscal year 2020 to further accelerate our ability to 
protect and defend our operations in space. Additionally, the 
Department is pursuing legislation to establish the United States Space 
Force as a sixth branch of the Armed Forces within the Air Force, and 
is taking steps to establish United States Space Command as a unified 
combatant command. The new Unified Command will focus on planning and 
executing space warfighting operations to secure our vital National 
interests. The Air Force stood up the Congressionally directed Space 
Rapid Capabilities Office and assigned its first three classified 
programs. The Air Force also re-organized the Space and Missile Systems 
Center by removing three layers of bureaucracy and empowering new 
Program Executive Officers to speed the delivery of space programs. 
Finally, the Department created a Space Development Agency to leverage 
commercial infrastructure to augment existing capabilities and rapidly 
prototype new capabilities. The Space Development Agency will transfer 
to the Space Force, once the Space Force is established.
                     hypersonic missile investments
    Question. Offensive hypersonic weapons are important to U.S. future 
capabilities because they provide options against advanced air and 
missile defenses that could block U.S. airpower and cruise missile 
strikes. Last year the Department of Defense took steps to reorganize 
its hypersonic weapons investments to ensure collaboration among the 
Services and assigned an important role for the Army.
    Secretary Shanahan, as much as you can get into in an open setting, 
please provide this committee with an update on our hypersonic missile 
investments and the way ahead. Is the United States on the cutting edge 
in this area?
    Answer. The U.S. has historically been the world leader in 
hypersonics R&D, however, until now we had decided not to weaponize 
this technology. Both China and Russia have, over the past decade, 
significantly energized their work on hypersonic systems with a goal of 
weaponization, and they have made major progress. In response, we have 
significantly increased our hypersonics investments in the Department 
with hypersonics being one of our top modernization priorities. This 
will allow us to remain on the cutting edge. We are actively working to 
accelerate the development, transition and fielding of hypersonic 
strike missiles launched from air, land and sea platforms. These 
systems will provide a transformational capability for time-critical 
strike from outside an adversary's defensive envelope. The portfolio of 
programs is being integrated across the Department, Services, and 
Agencies with a high degree of leverage. As an example, the Army, Navy, 
and Air Force are developing a family of weapon systems all using a 
Common-Hypersonics Glide Body.
                  china/advanced information networks
    Question. The most recent National Defense Strategy describes how 
the department is prioritizing investments in resilient communications 
networks. As we increase the number of sensors and other devices that 
share information on the battlefield, the potential threats will rise 
along with the gains in capabilities. We are also paying close 
attention to the commercial companies, including the Chinese company 
Huawei (pronounced--WAW--way) that are providing the enabling 
technology and hardware advancements.
    Mr. Shanahan CIO, is the Department taking advantage of emerging 5-
G technologies and otherwise accelerating deployment of commercial 
products with dual use technology?
    General Dunford Joint Staff, from your perspective, what are the 
risks to our information security in light of current and future 
threats. Can the department do more to address or better prepare for 
these threats?
    Answer. Emerging 5G technologies will transform not only the 
telecommunications sector, but entire industries, including 
manufacturing, medicine, agriculture, and transportation. We must move 
quickly to ensure US technological dominance in 5G; the pace of 
advancement is such that we cannot wait to act. DoD needs capabilities 
to effectively operate anywhere and anytime and we must begin now to 
address the security challenges that 5G presents. DoD developed a plan 
that addresses both the opportunities and the challenges of 5G. This 
plan will enable collaborative experimentation with industry and 
academia to (1) accelerate the development and deployment of 5G 
capabilities that have both military and commercial relevance, and (2) 
develop the capability to dynamically share spectrum (frequencies) in 
congested and contested environments.
                           technological edge
    Question. Commercial companies in China have made determined 
efforts to obtain American technology by partnering with U.S. companies 
or purchasing them outright. While the PLA has also sought to obtain or 
otherwise benefit from the transition of American technology to foreign 
companies. The threats to our national security are obvious.
    General Dunford Joint Staff, You have suggested in public remarks 
that the distinctions between the Communist Party of China, the 
government of China and their military are often without a difference. 
Does this budget do enough in your opinion to maintain our 
technological military edge in spite of all that?
    Secretary Shanahan A&S, you have expressed concerns about the 
Pentagon's defense slow acquisition process and delays to fielding new 
technology. Will you describe your efforts to speed things up, in 
particular in hypersonic weapons, space and cyber? Do you have the 
resources to stay ahead of near peer nations?
    Answer. In hypersonics, the President's Budget request for fiscal 
year 2020 dramatically accelerates the development and transition of 
hypersonic strike missile capabilities. I would estimate that, with 
this investment, we will field a weapon at least 5 years earlier than 
would have otherwise been possible. Across our hypersonics portfolio we 
have made major use of our Section 804 authorities to significantly 
accelerate our ability to develop and test prototype systems for rapid 
transition to the warfighter. In space, we have also utilized Section 
804 authorities to accelerate acquisitions. Most importantly, we have 
stood up the Space Development Agency. The mission of the SDA is to 
develop and deploy distributed space capabilities in a timescale 
several times faster than typical acquisition. SDA is planning on 
achieving this goal by teaming with commercial developments, and 
utilizing as much readily available technology as possible. Beyond SDA, 
we are utilizing Other Transaction Agreements through industry 
consortia to rapidly procure capabilities; sensing solutions for the 
missile defense mission is one example. In cyber, DoD is aggressively 
pursuing several initiatives that should dramatically accelerate the 
research, development, and acquisition of software and cyber 
capabilities. Two of the most important programs undertaken to achieve 
that end are the DoD DevSecOps Initiative and the Reducing Procurement 
Administrative Lead Time (PALT) program. Both of these USD(A&S)-led 
programs embrace evolving best practices and should streamline and 
accelerate the acquisition of more secure, more resilient, and more 
survivable software systems. Demonstrating a strong commitment to agile 
methodologies, the department recently gained approval for 
reprogramming $4.5 million of fiscal year 2019 funds to support the DoD 
DevSecOps Initiative. Under the PALT program, the 13 pilot programs 
have already experienced a 50 percent reduction in development time and 
a 10 percent cost avoidance.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
                             fort campbell
    Question. Support for Fort Campbell Servicemembers and Families. As 
you know, servicemembers at Fort Campbell have been on a near-constant 
cycle of deployment in support of the Global War on Terror, and many 
servicemembers at Fort Campbell have been deployed multiple times. It 
is critical that in these circumstances DoD provide adequate support 
for spouses and families of servicemembers. What resources, 
specifically, does DoD provide to support spouses and families of 
servicemembers at Fort Campbell, as well as other military 
installations, while servicemembers are deployed and when they return 
home?
    Additionally, what programs are in place within DoD to help 
servicemembers successfully transition back into civilian life?
    Answer. The U.S. Army recognizes the unique nature of military 
life, especially the challenges associated with deployment. U.S. Army 
garrisons offer a wide variety of programs and services designed to 
support Soldier and Family well-being, resilience, and self-reliance. 
Programs and services are available through all phases of the 
deployment cycle: pre-deployment (information, individual and unit 
training, education, and preparation); deployment (assistance, support, 
and child care); and, post-deployment (assistance, Soldier and Family 
reintegration, and counseling). These programs and services are 
tailorable based on installation/community requirements. The below 
listed programs, while not inclusive of all programs, are available to 
support Soldiers and Families during deployment and redeployment at 
Fort Campbell, and most Army installations. They are provided by the 
garrison Army Community Service Center, Child and Youth Services, and 
Soldier and Community Recreation. Notable programs include:
  --The Mobilization and Deployment Readiness Program. This program 
        provides deployment training and information/referral services 
        to support servicemembers and their Families. The program 
        promotes positive adjustment to deployment, to family 
        separation, and then to family reunion. Training includes pre/
        post deployment and Soldier and Family Readiness Group (SFRG; 
        formerly known as FRG). Sessions can be provided to either an 
        individual augmentee or a unit. Services can be tailored based 
        on needs, leveraging available resources within the ACS and the 
        community. This may include, but is not limited to, 
        participation in Soldier Readiness Processing (SRP), SFRG 
        meetings, deployment fairs, and reunion/reintegration events.
  --Operation Military Child Care (OMCC): Supports the child care needs 
        of Active Duty, National Guard, and Reserve Soldier parents who 
        are mobilized or deployed. OMCC helps eligible Families find 
        child care options at reduced rates in local communities. It 
        also reduces child care fees of Families already using licensed 
        community child care programs and providers.
  --Respite Child Care: Offers respite child care for parents to give 
        them temporary relief from child rearing duties and allows them 
        time to take care of personal business. Families are offered 16 
        hours per child, per month, of no cost care beginning 30 days 
        before a Soldier is deployed and ending 90 days after the 
        Soldier returns.
  --``We've Got You Covered'': Offers extended hours in designated 
        Child and Youth Service (CYS) operations to ensure child care 
        is available for enrolled full day children at no additional 
        cost to Soldiers who have mission requirements beyond normal 
        duty hours.
  --Child Behavior Consultants: Provides on-site counselors in child 
        and youth programs to offer non-medical, short term, 
        situational, and problem-solving counseling services to staff, 
        parents, and children within CYS facilities, garrison schools, 
        and summer camps.
    The Army's Soldier for Life--Transition Assistance Program (SFL-
TAP) assists Soldiers with transitioning into civilian life. This 
assistance program includes classes for career readiness, 
entrepreneurship, college education, or vocational training per the 
Soldier's goals; a financial planning workshop; information regarding 
VA benefits; one-on-one counseling; and more to prepare Soldiers for 
transition. SFL-TAP connects Soldiers to opportunities through hiring 
events and the Career Skills Program (CSP). The CSP prepares Soldiers 
for civilian employment through first-class apprenticeships, on-the-job 
training, job shadowing, internships, and employment skills training. 
The CSP has over a 90 percent placement rate. Additionally, the Army 
has a 24/7 Virtual Center, available online and over the phone, to 
provide support to Soldiers around the world who have limited access to 
a brick-and-mortar location. According to client satisfaction 
questionnaires, the personal assistance provided by SFL-TAP staff has a 
98 percent satisfaction rate. These efforts, to support transitioning 
Soldiers, coincide with an 82.2 percent decrease in the Army's total 
unemployment compensation for ex-servicemembers over the course of 7 
years.
                       military spouse employment
    Question. According to the Military Spouse Employment Partnership 
(MSEP), military spouses face a 26 percent unemployment rate despite 
being well educated, highly qualified and willing to work. MSEP 
identified spouse employment challenges as a threat to military 
readiness and quality of life for military families. Will you please 
provide an update on what programs and resources DoD provides military 
spouses to help them find and retain meaningful, gainful employment?
    As you know, a particular barrier for military spouses is the 
patchwork of State occupational licensing laws that apply to a variety 
of jobs such as teaching and healthcare. Recently, Kentucky has taken 
steps to ease these requirements for military spouses by allowing them 
to use licenses issued by other states. Will you please provide an 
update on DoD's efforts to decrease occupational licensing barriers for 
military spouses throughout the country?
    Are there any tools that Congress could provide that would help 
DoD's efforts to support military spouse employment?
    Answer. The Military Spouse Employment Partnership (MSEP) is part 
of the Department's Spouse Education and Career Opportunities (SECO) 
program that provides military spouses with expert education and career 
guidance and offers comprehensive information, tools, and resources to 
support career exploration, education, training, licensing, employment 
readiness, and career connections. There are four main components of 
the program, all of which help spouses find and retain meaningful 
employment. They are:
  --The My SECO website is a one-stop online career and education 
        toolbox that provides information, resources, and interactive 
        features designed to assist military spouses who are pursuing 
        educational and career goals. (https://
        myseco.militaryonesource.mil/Portal)
  --The SECO Career Center hosts master's level degree holding career 
        coaches who provide comprehensive counseling services at no 
        cost to military spouses. In fiscal year 2018, the counseling 
        center conducted 164,000 career and educational counseling 
        sessions and maintained a 98 percent satisfaction rate with 
        customers.
  --The MSEP is an employment and career partnership connecting 
        military spouses with more than 390 partner employers who have 
        committed to recruit, hire, promote, and retain military 
        spouses in portable careers. Since the program began in 2011, 
        partner employers have hired more than 134,000 military spouses 
        at all levels and across multiple employment sectors. This 
        partnership continues to grow, with 19 partners added so far 
        this year to the list of employers.
  --The My Career Advancement Account (MyCAA) scholarship program is a 
        component of SECO. RAND published an early evaluation of the 
        MyCAA scholarship program in November 2018 that found 
        scholarship use positively impacted both spouse earnings and 
        Service member retention. The MyCAA scholarship provides 
        eligible spouses with up to $4,000 for the pursuit of licenses, 
        certifications, or associate's degrees in portable career 
        fields to assist our junior military spouses in attaining the 
        education, certifications, or licenses they need to find 
        employment. The Department of Defense is interested in studying 
        whether an expansion of the MyCAA scholarship is feasible and 
        advantageous to military spouse employment. Another resource of 
        note that is provided through the SECO program, in partnership 
        with LinkedIn's Military and Veterans Program for military 
        spouses with a MySECO account, is access to a 1 year upgrade to 
        LinkedIn Premium, at no cost. This access provides military 
        spouses with maximum outreach to recruiters and employment 
        opportunities, regardless of geographic location.
    The Department has worked with State officials since 2011 on 
improving the portability of occupational licenses for military 
spouses. Forty-eight states have enacted specific laws to assist 
military spouses through endorsement of existing licenses, temporary 
licenses to assist in accommodating State requirements, and/or 
expedited application processes. States are continuing to update and 
improve on these initial efforts, as Kentucky has done in 2019. Many of 
these improvements, however, still do not provide reciprocity and 
require a full application from the military spouse, along with 
supporting documentation from the originating States. These 
requirements can be extremely time-consuming and expensive to fulfill. 
Furthermore, many occupational boards have been slow in implementing 
the changes prescribed by State law. The U.S. Department of Labor and 
the U.S. Department of Defense are working with States to improve 
implementation of these changes. Additionally, the Department of 
Defense has found that interstate compacts for occupational licensure 
provide the most seamless approach for military spouses (as well as 
other licensees), while maintaining public safety requirements inherent 
in licensing. These compacts take time to develop and to obtain 
approval of States, so the Department continues to work with States on 
interim improvements that can expedite and limit requirements for 
licensing, until such time that occupation-specific interstate compacts 
can eliminate the need for State-by-State licensing.
    The Department has the authority and funding to continue to offer 
education and career opportunity programs for military spouses, to 
include support for spouses as they transition with their military 
sponsor to civilian life. Improvements to licensure, as noted above, 
are being accomplished by States and by individual occupations through 
the development of interstate compacts. While the Department is aware 
of many occupations for which developing compacts for licensure should 
be considered, many of the national associations representing these 
occupations do not have sufficient seed-money to gather advisors and 
drafters to develop the compacts, or funding to establish a database to 
administer a national approach to State licensing and portability 
without relicensing requirements. The Department believes that a small 
amount of initial support would eliminate barriers to providing the 
seamless licensure environment military spouses have requested.
                        military sexual assault
    Question. As DoD acknowledged in its most recent report on sexual 
assault within the Armed Forces, this issue remains a ``persistent 
problem'' and requires urgent action. Will you please provide an update 
on what actions DoD is taking to prevent sexual assault and misconduct 
in the military?
    Answer. On May 1st, I directed the Department to take the following 
actions:
  --Implement the recommendations of the Sexual Assault Accountability 
        and Investigation Task Force report, including taking steps to 
        seek a stand-alone military crime of sexual harassment.
  --Develop new command climate assessment tools focused on providing 
        leaders information on the extent of their unit's climate 
        challenges, assistance with developing an appropriate course of 
        action to address climate issues, and assessment and feedback 
        on their efforts.
  --Launch the Catch a Serial Offender (`CATCH') Program to improve the 
        identification of repeat offenders.
  --Enhance efforts to select recruits of the highest character to 
        ensure the men and women recruited into our Armed Forces are 
        compatible with our military's core values.
  --Prepare new leaders and first-line supervisors for applied 
        leadership challenges, so that our newest officer and enlisted 
        leaders are prepared to fulfill their supervisory roles to 
        prevent and properly respond to sexual assault and sexual 
        harassment.
  --Execute the DoD Sexual Assault Prevention Plan of Action.
                  fort knox ireland army health clinic
    Question. Will you please provide an update on the new Ireland Army 
Health Clinic, which will replace the Ireland Army Community Hospital 
at Fort Knox?
    As this new facility proceeds, what actions does DoD intend to take 
to keep its commitment to serving the health needs of our 
servicemembers, their families, and military retirees of the Fort Knox 
community?
    Does DoD anticipate that these retirees will continue to have 
access to ancillary services at the new Ireland facility?
    Answer. The Fort Knox Ambulatory Care Center (FKACC) project will 
replace the 61-year old Ireland Army Community Hospital and was awarded 
as a Design/Build construction contract in March 2017 at a cost of 
$54,767,000 to M.A. Mortenson Company. The U.S. Army Corps of 
Engineers, Louisville District, is managing the construction contract. 
The construction of the clinic is scheduled for fall 2019 completion 
with patients transitioning in January 2020. The FKACC is projected to 
open for patient care in early 2020 and will provide a high quality 
healthcare environment to the Fort Knox community. The FKACC is one-
quarter the size of the previous hospital, reflecting changes to Fort 
Knox's mission resulting from the adoption of the 2005 Base Closure and 
Realignment Commission's recommendations.
    Ireland Army Health Clinic (IRAHC) will ensure all Fort Knox 
beneficiaries have continued access to medical care as we transition to 
the new Fort Knox Ambulatory Care Center in January 2020. Enrolled 
active duty service members and their dependents will continue to 
receive medical care from their IRAHC primary care manager while we are 
in the legacy facility and this will continue when we move in to the 
new health clinic. Retired beneficiaries and their family members will 
receive medical care from their local network primary care manager.
    Retired beneficiaries and their family members will have continued 
access to pharmacy services. They will also have access to laboratory, 
radiology, and optometry services on a space available basis in the new 
Fort Knox Ambulatory Care Center.
                    fort knox energy savings program
    Question. As you know, Fort Knox maintains a highly-recognized 
energy security program that allows the post to manage energy 
expenditures and be energy self-sufficient for up to 90 days. The 
fiscal year 2019 NDAA codified this program and provided authority for 
Fort Knox to continue to extract natural gas from the 26 wells on 
base--something they had been doing for nearly a decade. Will you 
please provide an update on Fort Knox's extraction, use and storage of 
natural gas and the potential for expansion of this successful program?
    Answer. Fort Knox currently extracts sufficient natural gas to 
power its critical facilities and infrastructure, thereby reducing 
energy costs and providing installation resilience. Per Section 320 of 
the fiscal year 2019 NDAA, the Bureau of Land Management (BLM) visited 
Fort Knox in March 2019 to inspect the wells and complete reviews of 
installation and operation records and reports. Based on the initial 
inspection, the BLM raised no major issues but cited concerns regarding 
well labeling, placards, metering, and other items. BLM and Fort Knox 
are developing a common set of standards to measure, report, and 
monitor natural gas well activity, and to recognize that this gas will 
be used for internal agency purposes and not resold to an outside 
party. There are several other Army installations and bases with 
deposits of oil and/or natural gas. The Army would like to extract and 
utilize these energy resources to provide resilience for critical 
facilities and infrastructure, but cannot do so without additional 
statutory authority.
                     fort campbell aviation assets
    Question. I understand that Fort Campbell currently houses a third 
of the aviation assets that it had 10 years ago. What plans does DoD 
have to help restore aviation capability to the 101st Airborne 
Division--particularly its ability to execute air assault of a brigade 
combat team during one period of darkness?
    Answer. The 101st Airborne Division has approximately 50 percent of 
the aviation assets it had 10 years ago. The Army is currently re-
evaluating the lift capacity within the 101st Airborne Division to 
rebuild their ability to conduct a Brigade Combat Team level Air 
Assault in one period of darkness. As the Army's preeminent Air Assault 
Division, this capacity is vital for the 101st to contribute to the 
National Defense Strategy and meet Combatant Commander requirements. 
The Army will add heavy lift aircraft to the 101st Airborne Division, 
although the assessment is currently ongoing and the additional force 
structure requirements have not been finalized. The Army has aligned a 
Reserve Component aviation unit with the 101st to provide additional 
lift capacity. If required in the near-term to conduct a Brigade Combat 
Team level Air Assault, the Army will task organize the required 
aviation resources to accomplish the mission.''
                     fort campbell facility updates
    Question. It is important that military installation facilities are 
modern, safe, and efficient. While funding for important projects at 
Fort Campbell--such as the Fort Campbell Middle School, Vehicle 
Maintenance Shop and Special Operations Forces facilities-- was 
appropriated in fiscal year 2019, additional facility upgrades are 
needed. What plans does DoD have to update Fort Campbell facilities, 
including, but not limited to, the Sabre Army Airfield access control 
point, maintenance facilities and the Korean War-era barracks?
    Answer. The Army's fiscal year 2020 Military Construction request 
includes $61 million at Fort Campbell to construct a maintenance shop 
and a training range to enhance the equipment and training readiness of 
Fort Campbell Soldiers. The request includes purchasing airfield 
easements to safeguard Fort Campbell's ability to project combat power. 
In future budget cycles, the Army will continue to assess its critical 
facility requirements across its entire footprint and prioritize 
funding accordingly.
                      blue grass army depot (bgad)
    Question. How will the decision to convert BGAD to a Strategic 
Reserve site impact employment at the facility and funding for BGAD's 
continuing missions?
    What are DoD's long-term plans for the conventional operations of 
BGAD, and does DoD have any plans to expand existing missions or bring 
new operations to the facility?
    Will you please provide an update on any potential public private 
partnerships that the installation is seeking?
    Answer. We do not see a reduction in the current workforce due to 
the change of designation. The permanent workforce will remain stable; 
Blue Grass Army Depot will manage its workforce through normal 
attrition or hiring processes, as needed, in response to workload 
fluctuations. Term and temp employees will continue to serve their 
contract times based on current and projected workloads.
    DoD's long-term plans are for the conventional operations at BGAD 
to continue, as it remains an important and viable member of the 
organic industrial base. DoD currently does not have specific plans to 
expand existing missions.
    DoD is committed to optimizing workload opportunities at its 
industrial base facilities that support the priorities of the Chief of 
Staff of the Army through the use of public private partnerships. The 
Joint Munitions Command's public private partnership office continues 
to support Blue Grass Army Depot's efforts and will provide support and 
guidance on future efforts. Blue Grass Army Depot currently has two 
contracts, one with Day and Zimmerman and one with Northrup Grumman/
Alliant Tech Systems for a total value of $37,000. There are two 
pending contract awards with two companies for a total of $10-15K. 
There is one potential contract, value still to be determined.
 chemical agent and munitions destruction at the blue grass army depot 
                                 (bgad)
    Question. What steps are being taken by DoD to ensure the safety of 
facility personnel and Madison County residents during testing and 
operation of the facilities?
    Answer. There is very little danger to the surrounding population 
due to the storage or demilitarization of the chemical munitions 
located at Blue Grass Army Depot. The munitions are stored in closed 
earth covered magazines. The Blue Grass Chemical Agent-Destruction 
Pilot Plant is a closed design with supplemental technologies. If a 
munition does leak, safety controls are in place to contain any threat. 
Further, the U.S. Army Chemical Materials Activity has coordinated with 
the Federal Emergency Management Agency and surrounding community 
officials/responders to maintain emergency preparedness and readiness 
in the unlikely event of a chemical agent release. The storage site and 
surrounding community emergency response capabilities have been 
supplemented with coordinated plans, communications, personnel, 
emergency operations centers, automation, alert and notification, 
protective actions, medical support, training, public information, and 
education. Each of these capabilities is evaluated bimonthly and during 
an annual joint exercise.
                                 ______
                                 
             Question Submitted by Senator Susan M. Collins
                        iran influence in syria
    Question. Iran has worked to establish bases, factories, and 
weapons storage facilities throughout Syria, and are supplying 
significant support to its terrorist proxies in the region. What is our 
current strategy to limit Tehran's influence in Syria, including its 
formidable proxy forces, given the U.S. troop drawdown?
    Answer. The U.S. military in Syria focuses on the Defeat-ISIS 
campaign, as stated in our notification to the UN Security Council and 
per current AUMF authorities. This presence and these operations permit 
the U.S. to provide an ancillary effect to counter Iran throughout the 
region, indirectly monitor Iranian activity within Syria, and deter the 
Iranian objective of exacerbating the civil war in Syria.
                                 ______
                                 
                Question Submitted by Senator Roy Blunt
                           hearing protection
    Question. The ability to hear and communicate is critical to 
soldier and unit safety, central to effective command and control, and 
integral to mission accomplishment, especially during combat where a 
soldier's hearing is constantly assaulted. Despite military services 
stressing the importance of using hearing protection and the 
establishment of conservation programs, military hearing loss and 
auditory injuries are still on the rise. In fact, hearing loss and 
tinnitus are the top two service-connected disabilities for our 
Nation's veterans. With our soldiers sacrificing so much in the line of 
duty, we should actively be pursuing solutions to ensure this is not 
they come home to. What specific programs is the Department advancing 
to ensure our service members' hearing is protected, particularly those 
most frequently exposed to harmful decibel levels?
    Answer. DoD, through the Hearing Center of Excellence (HCE) and its 
instrumental collaborations with the Military Services and the VA, has 
worked diligently to prevent, diagnose, and rehabilitate hearing among 
Service members and veterans. Listed below are current examples of 
relevant DoD and Service-level programs:
  --Development, along with the VA, of the Joint Hearing Loss and 
        Auditory System Injury Registry, with an estimated system 
        launch in Fall 2019.
  --The Comprehensive Hearing Health Program, a best practice approach, 
        is being launched across the DoD and VA to reduce the incidence 
        of hearing injury through education, protection, and 
        monitoring. The program's aim is to standardize and optimize 
        hearing conservation services and education. In addition, 
        Service providers periodically monitor Service members' hearing 
        to keep them on track with their hearing health as a military 
        readiness requirement.
  --The four-module Hearing Education and Readiness (HEAR) course, 
        available on-line and via a HEAR app, informs Service members 
        about exposure risks to hazardous noise, negative impacts of 
        noise-induced hearing loss, and effective strategies to help 
        reduce risk.
  --An evaluated products list (EPL) and guidebook to solve the dual 
        need of delivering hearing protection, while maintaining 
        Service members' necessary situational awareness. The EPL 
        resource will ensure devices are assessed according to 
        standardized methods for steady-state noise, impulse noise, and 
        localization. The HCE and the Services continue to build upon 
        this system to evaluate hearing protection products based on 
        operational significance and situational awareness factors, 
        such as signal quality, sound localization, and protection from 
        blast and impulse noise. Evaluating these performance factors 
        will allow Service members and leaders to identify products 
        that meet their protection and operational needs.
  --All of the Services have hearing conservation programs, to include 
        collaboration through the DoD Hearing Conservation Readiness 
        Working Group. Additionally, the Army and Marine Corps 
        implemented Hearing Readiness programs, which demonstrated 
        effectiveness in decreasing hearing injury rates and increasing 
        hearing health awareness among Soldiers, Marines, and 
        leadership.
  --To increase oversight and rigor in its hearing conservation and 
        noise reduction efforts, the Navy formalized and expanded its 
        Regional Hearing Conservation test and evaluation team at its 
        Naval Submarine Medical Research Laboratory, in conjunction 
        with the Office of Naval Research's programs. The Navy research 
        programs pursue solutions to a range of challenges, to include 
        evaluating the effects of hearing protection devices on speech 
        communications, sound localization, situational awareness, and 
        comfort.
  --Existing efforts to improve hearing protection performance, as well 
        as identify and overcome barriers to their use, include an 
        award of a small business technology transfer contract for the 
        development of hearing protection that addresses existing 
        limitations. The use of individual fit-check systems is being 
        advanced as a quantitative means to verify issued hearing 
        protection, and ensure that Service members properly wear and 
        use their issued hearing protection.
                                 ______
                                 
               Question Submitted by Senator Jerry Moran
 solar system and beyond with the best talent and technology available
    Question. As Chairman of the Commerce, Justice and Sciences 
Appropriations Subcommittee with oversight and responsibility to fund 
NASA, I am focused on our Nation's ability to explore our solar system 
and beyond with the best talent and technology available, which 
includes critical aeronautics materials research by the National 
Institute for Aviation Research in Wichita, Kansas, the Air Capital of 
the World.
    Mr. Secretary, last month you stated, ``Space is under threat, but 
we are ready today and we will remain ready as these threats expand. To 
those who want to partner with us: Buckle up. We are seizing on a once-
in-a-lifetime opportunity.'' How are you reaching out to industry and 
academia to seize this ``once-in-a-lifetime opportunity'' to protect 
and defend the United States from threats in space?
    Answer. The Air Force supports multiple initiatives to engage both 
industry and academia in defending against threats in the space domain, 
such as leveraging the Space Enterprise Consortium (SpEC), holding 
industry ``Pitch Days,'' and operating space technology accelerator 
programs. In 2017, the Space and Missile Systems Center (SMC) 
established the SpEC specifically to facilitate better engagement with 
industry and academia. The SpEC is a contract vehicle that allows the 
Air Force to be more agile in its contracting, minimizing the barriers 
to entry for small businesses and non-traditional vendors. This in turn 
gives the Air Force greater access to innovative solutions and reduces 
prototyping development costs. The Consortium allows the Air Force to 
foster collaboration and prototype development to reduce risk and 
improve technology on-orbit. To date, the SpEC has 295 members and has 
awarded 37 efforts worth over $228 million. The Air Force also plans to 
hold a Space Pitch Day in Fall 2019, building off the successes of the 
first Air Force Pitch Day held earlier this year. The Air Force 
modelled its Pitch Day after commercial investment pitch competitions 
to make it easier for smaller companies, startups, and non-traditional 
vendors to work with the Air Force, awarding contracts to 51 companies 
of the 59 invited to pitch, totaling $8.75 million. This space-specific 
Pitch Day will provide additional opportunities for industry to quickly 
and effectively present ideas to the Air Force to help defend against 
emerging threats. Finally, the Air Force is operating three technology 
accelerator efforts between Albuquerque, NM, Colorado Springs, CO, and, 
starting this summer, Los Angeles, CA to encourage space-industry 
collaborations under the Air Force Space Accelerator Program run by the 
Space Vehicles Directorate of the Air Force Research Lab (AFRL). 
Technology accelerators support early-stage companies through 
education, mentorship, and financing for a fixed period of time, 
helping to accelerate their development. Each Air Force space 
accelerator effort works with experience companies that specialize in 
mentoring and accelerating start-up companies. The accelerators focus 
on adopting emerging commercial technologies to fill capability gaps 
faced by the warfighter.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
            real-world training related to disaster response
    Question. The Senate Appropriations Committee provides funding for 
training of the Army and Air National Guards under Title 32 with the 
expectation that Guard units will receive real-world training related 
to disaster response under pre-set guidelines issued by the respective 
Service Secretaries. This provides benefits to the Joint Force through 
experience gained from collective response in a crisis situation, and 
benefits to our constituents who expect their friends and neighbors in 
the Guard to respond on their worst days, as they always have.
    Will you commit to not making major changes to the way the National 
Guard is funded and managed for disaster response ahead of the 
increased domestic operational tempo that comes from summertime, 
including hurricane season and wildfires?
    Do you have concerns with the existing disaster response paradigm 
for the National Guard, and, if so, will you describe them?
    Answer. Yes. The Department of Defense (DoD) is not changing the 
way DoD funds and manages National Guard for disaster responses in the 
United States. Unlike the Federal Emergency Management Agency (FEMA) 
and other Federal departments and agencies, DoD is not authorized, nor 
does Congress appropriate funds to the Department, for the explicit 
purpose of domestic disaster response. Instead, DoD provides domestic 
disaster support, on a reimbursable basis, as requested by FEMA or 
other Federal departments and agencies, in accordance with the Stafford 
Act or the Economy Act. This DoD support can be provided by National 
Guard personnel, consistent with the law and DoD policies and the 
concurrence of the Governor concerned. Because States rely on their 
National Guard as a critical State resource in disaster responses, a 
State's Governor or Adjutant General is able to direct the use of the 
Army National Guard and the Air National Guard for disaster response in 
their States, or in support of other States pursuant to an interagency 
mutual aid and assistance agreement, such as the Emergency Management 
Assistance Compact, in a State active duty status. Some National Guard 
personnel, under certain circumstances, also may response when already 
in Title 32 status under a separate authority.
    DoD has no concerns with the existing disaster response paradigm 
and the critical role of the National Guard in State disaster response 
activities. This paradigm was described in the National Response 
Framework, and established in the Robert T. Stafford Disaster Relief 
and Emergency Assistance Act (Stafford Act). In enacting the Stafford 
Act, Congress noted that the intent of the Stafford act is to provide 
an orderly and continuing means of assistance by the Federal Government 
to State and local governments in carrying out their responsibilities 
to alleviate the suffering and damage that result from disasters. DoD 
will continue to participate in this orderly and continuing means of 
assistance in support of the Federal Emergency Management Agency's 
efforts to support the affected States.
                               burn pits
    Question. Concern of veterans about lingering effects from exposure 
to airborne hazards from open air burn pits has led to a growing 
awareness of their danger. The Department has taken steps to reduce and 
document exposure for service members, as well as work with the 
Department of Veterans Affairs' to support their response to veterans.
    Who is or are the individuals or office within the Department for 
documenting service member exposure to burn pit usage by the Department 
of Defense, allies, or third parties in theater?
    Who is or are the individuals or office within the Department that 
coordinate with the Department of Veterans Affairs to share information 
on service members exposed to open air burn pits?
    Does the Department have or what would it cost the Department to 
complete a comprehensive list of open air burn pit sites dating back to 
2001 operated in proximity to United States service members?.
    Answer. The Undersecretary of Defense for Personnel and Readiness 
establishes Department of Defense (DoD)-level policy (for example, DoD 
Instructions) for monitoring, assessing and documenting exposures to 
occupational and environmental hazards in garrison and during 
deployments. The Military Departments, Joint Staff and Combatant 
Commands issue instructions and procedures to implement this policy 
within their respective organizations (Military Departments) and areas 
of operations (Joint Staff/Combatant Commands). Regarding execution of 
exposure monitoring, deployed Service Preventive Medicine Teams conduct 
Occupational and Environmental Health Site Assessments (OEHSAs) for 
forward operating bases, including assessment of airborne hazards 
(e.g., ambient dust, industrial, burn pits). Military Service Public 
Health organizations use the OEHSAs and other exposure assessment 
information to formulate Periodic Occupational and Environmental 
Monitoring Summaries (POEMS) for the deployed environment. The POEMS 
also include an assessment of airborne hazards, to include burn pits. 
The DoD and Veterans Affairs (VA) are fielding the joint Individual 
Longitudinal Exposure Record (ILER) that links individual deployment 
location(s) with these environmental health assessments, thus 
documenting that a Service member was located at bases with documented 
environmental exposures. The ILER will be available to DoD and VA 
healthcare providers beginning in October, 2019, and eventually 
integrated with the new Electronic Health Record (EHR) to be used by 
the DoD and VA. Additionally, environmental exposure concerns (such as 
burn pit exposures) are addressed during the annual Periodic Health 
Assessment and Post-Deployment Health Assessments conducted by 
healthcare providers for Service members. Appropriate referrals to 
specialty care providers are made based on the results of these 
assessments, with the medical encounters annotated in the EHR.
    As the functional proponent for the ILER, the primary office within 
the Department that coordinates with the VA is the Office of the Deputy 
Assistant Secretary of Defense for Health Readiness Policy and 
Oversight (OSD Health Affairs). Additionally, the long-standing DoD-VA 
Deployment Health Working Group, comprised of several offices and 
medical representatives within DoD and VA, is a primary coordinating 
group for sharing of information on service members and veterans 
exposed to open-air burn pits and other exposures during deployments.
    The Department will evaluate available environmental health and 
exposure assessment data stored in existing systems (such as the 
Defense Occupational and Environmental Health Readiness System) to 
compile a list of locations with documented open-air burn pits. 
Separate of the list developed from existing data systems, the 
Department does not have an estimate of the cost to develop a list 
using other methods and data sources.
                             press briefing
    Question. As of the date of your public testimony before the 
Committee, the Department was approaching a year without holding an on-
camera press briefing.
    Will you commit to restoring transparency at the Department by 
restoring briefings?
    Answer. I am committed to transparency, and transparency at the 
Department has increased under my leadership. In fact, the Department 
has hosted numerous on the record press briefings since I became the 
acting secretary. From Jan. 1, the day I became acting secretary, to 
May 8, the day this question was asked, the Office of the Secretary of 
Defense has hosted 183 open press engagements, an average of 1.42 
engagements per day. This tally does not include on-camera 
congressional hearings, combatant command- and service-led engagements, 
press statements, social media posts, defense.gov videos, and the 
myriad of other ways the Department communicates. Furthermore, the 
assistant to the secretary of defense for public affairs and his team 
of public affairs professionals, who are subject matter experts on 
their portfolios, engage with members of the press daily in both formal 
and informal settings to provide them information. The media have 
direct access to this team, and they are available to the media on a 
daily basis, including nights, weekends, and holidays. Increasingly, I 
address the media with timely information, and I frequently engage with 
the press during my regular activities as well as on official trips. In 
the last month, I conducted more than 10 on-camera engagements. The 
bottom line is that the way the public consumes information, and the 
way public officials share information, has changed. While on-camera 
press briefings are important, solely measuring the Department's 
engagement with the American people on one statistic is a 
misrepresentation of all the Department does to tell its story.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
                              hypersonics
    Question. To develop hypersonic technology and possible counters, 
inland tests will need to be conducted. Is DoD coordinating with White 
Sands Missile Range to conduct the needed testing?
    Can you update my office on Air Mobility Command's efforts to 
utilize hypersonic point to point travel? What are the plans to make 
this a reality? And have the Air Force and DoD begun the interagency 
efforts to conduct overland hypersonic tests?
    Answer. The Test Resource Management Center (TRMC) in OUSD (R&E) 
has the responsibility to capture future flight test range requirements 
and coordinate interagency efforts to support the test and evaluation 
of advanced weapon systems, including hypersonic systems. The TRMC is 
currently updating previous hypersonic flight test requirements 
analyses and forecasting offensive and defensive hypersonics weapon 
programs' flight test demands on our existing open air range flight 
test infrastructure. Preliminary analysis indicates demand for 
hypersonic flight test exceeds the capacity of existing trans-Pacific 
open air range flight test corridors. Additional CONUS, to include 
White Sands Missile Range, and OCONUS open air range flight test 
corridors are under consideration to identify the most effective 
approach to increase flight test capacity to meet DoD hypersonic 
systems' flight test demands. One element of our integrated hypersonics 
strategy is the development of global reach reusable systems, however, 
realizing capability based on those systems will not happen until well 
into the future. As such, there is no significant discussion in Air 
Mobility Command about hypersonic point-to-point travel in the near 
term.
                                 ______
                                 
         Questions Submitted to General Joseph F. Dunford, Jr.
            Questions Submitted by Senator Richard C. Shelby
                        fiscal unpredictability
    Question. As you are aware, congress has not yet reached a final 
agreement on a budget for fiscal year 2020 that includes the funding 
level for the Department of Defense. While I am pleased that we were 
able to provide the Department with fiscal year 2019 funding prior to 
the start of the fiscal year, we are not yet certain of that outcome 
for the next year.
    Secretary Shanahan or General Dunford Joint Staff, With regard to 
areas of emerging technology in particular, how important is regular 
and sufficient funding to the Department of Defense?
    Answer. The Joint Force requires sustained, predictable, and 
adequate levels of funding to build the capacity and develop the 
capability to compete with near-peer adversaries. The Joint Military 
Net Assessment--a rigorous tool we use to evaluate the Joint Force's 
ability to meet its strategic objectives--identified challenges across 
all domains in the context of our near-peer competitors. Compared to 
the trajectory of capability development of near-peer competitors, the 
Department's investments in advanced technologies should focus on 
closing any gaps.
                  china/advanced information networks
    Question. The most recent National Defense Strategy describes how 
the department is prioritizing investments in resilient communications 
networks. As we increase the number of sensors and other devices that 
share information on the battlefield, the potential threats will rise 
along with the gains in capabilities. We are also paying close 
attention to the commercial companies, including the Chinese company 
Huawei (pronounced--WAW--way) that are providing the enabling 
technology and hardware advancements.
    Mr. Shanahan CIO, is the Department taking advantage of emerging 5-
G technologies and otherwise accelerating deployment of commercial 
products with dual use technology?
    General Dunford Joint Staff, from your perspective, what are the 
risks to our information security in light of current and future 
threats. Can the department do more to address or better prepare for 
these threats?
    Answer. From my perspective, the risk to information technology and 
frankly, any technology originating from peer competitor nations is 
operating on a network whose confidentiality, integrity, and 
availability may be controlled by the adversary. Evidence of backdoors 
or security vulnerabilities have been discovered in a variety of 
telecommunications devices globally. When such devices are incorporated 
into the U.S. systems and networks, those security vulnerabilities 
remain, and can be used to exfiltrate information, aid in denial of 
service attacks, or monitor communications. There must be standards 
that mandate Chinese and other competitor nation companies comply with 
international cyber security practices. If China leads the field in 5G 
infrastructure and systems, the future 5G ecosystem will likely have 
Chinese components embedded throughout. The growth in the number of 
devices connected to 5G networks will increase the potential ``attack 
surface'' for adversaries to target DoD networks. Another area of 
concern is the Defense Industrial Base (DIB), where we continue to lose 
significant data to malicious cyber actors. We have established the 
Protecting Critical Technology Task Force, continued to collaboratively 
share cyber threat information with industry, and have begun to 
incentivize DIB companies to deliver secure capabilities in keeping 
with fiscal year 2016 NDAA 1647 weapon systems resiliency requirements. 
Nested with the intent of the President's recent Executive Order, the 
Department has taken steps to inspect the DoDIN for presence of Huawai 
equipment, and to mitigate or remove such equipment where found. 
Additionally, we have taken measures to ensure Huawei is prohibited in 
the Defense Federal Acquisition Regulations Supplement. To answer the 
second part of your question Senator, yes, there is more the Department 
can do. What remains is to look out past the DoDIN--both domestically 
at our Nation's Critical Infrastructure supporting the Department and 
to our Allies and Partners. To this end, the SECDEF and Secretary of 
Homeland Defense agreed in late 2018 to establish a Cyber Protection 
and Defense Steering Group. This group has initiated a set of 
pathfinders with the U.S. financial sector and the electricity sub-
sector to address mutual DoD and DHS concerns.
                           technological edge
    Question. Commercial companies in China have made determined 
efforts to obtain American technology by partnering with U.S. companies 
or purchasing them outright. While the PLA has also sought to obtain or 
otherwise benefit from the transition of American technology to foreign 
companies. The threats to our national security are obvious.
    General Dunford Joint Staff, You have suggested in public remarks 
that the distinctions between the Communist Party of China, the 
government of China and their military are often without a difference. 
Does this budget do enough in your opinion to maintain our 
technological military edge in spite of all that?
    Secretary Shanahan A&S, you have expressed concerns about the 
Pentagon's defense slow acquisition process and delays to fielding new 
technology. Will you describe your efforts to speed things up, in 
particular in hypersonic weapons, space and cyber? Do you have the 
resources to stay ahead of near peer nations?
    Answer. The DoD is using an adaptive acquisition framework to 
tailor the acquisition process to the capability or service we're 
procuring. We are revising the 5000.02 to reflect the Department's 
priority to accelerate acquisition timelines to deliver capability at 
the speed of relevance while increasing use of middle tier of 
acquisition authorities, and innovating our contracting approaches to 
accelerate how we develop and deliver critical space capabilities. We 
have the resources to stay ahead of peer nations. Several space system 
acquisitions are leveraging the Middle Tier of Acquisition for rapid 
prototyping and rapid fielding authorities granted in the fiscal year 
2016 NDAA, Section 804. They are on track to accelerate the delivery of 
critical capabilities one to 3 years ahead of the traditional 
acquisition path through streamlined processes and leveraging rapid 
prototyping for terminals. To accelerate cyber and software-related 
capability development, the Department is reducing software delivery 
timelines and implementing strategies consistent with reform directed 
by Congress (fiscal year 2018 NDAA Sec 873/874) by establishing Agile 
Software Pilot Programs and by partnering with industry to evaluate 
non-traditional cyber hardening technologies to address legacy system 
vulnerabilities. To protect our warfighting advantage, we need to 
ensure that the technologies and capabilities the Department develops 
and acquires are not compromised by adversaries conducting large scale 
cyber espionage against the Defense Industrial Base (DIB). The 
Services, Agencies, and Combatant Commands are working together to 
implement enhanced DIB cyber security standards and initiatives to 
secure Intellectual Property essential to national security. As space 
capabilities are software intensive, we are using lessons learned from 
our Agile Software Pilot Programs, along with recommendations from the 
2019 DIB Software Acquisition and Practices Report, to update our 
processes and guidance on how to develop and contract for software 
intensive systems. We're additionally balancing on-orbit/vehicle 
embedded software capability to ground-based application software 
capabilities in architecture design. Finally, we're using automation in 
the software development lifecycle. In addition, to accelerate 
cybersecurity for the DIB we are working with Johns Hopkins Applied 
Physics Lab (APL) and Carnegie Mellon Software Engineering Institute 
(SEI) along with Industry Partners such as the Defense Industrial Base 
(DIB) Sector Coordinating Council (DIB SCC) and others to combine 
various cybersecurity standards (such as National Institute of Science 
and Technology (NIST) Standard 800.171 & 800.53, International 
Standards Organization (ISO) 27001 & 32, Aeronautic Industry 
Association(AIA) NAS9933) into one unified standard for cybersecurity 
for the DIB Supply Chain. The comprehensive cybersecurity standard will 
be known as the Cybersecurity Maturity Model Certification (CMMC). The 
CMMC will create requirements for security and allow third-party audits 
and certifications of the security of contractor networks and 
processes. The Department is rapidly increasing its investment in 
hypersonic missiles, with emphasis on accelerating transition of proven 
Conventional Prompt Strike (CPS) boost-glide technology with the Navy & 
Army, as well as, a more advanced boost-glide vehicle being developed 
cooperatively by DARPA and the Air Force. The President's fiscal year 
2020 budget requests $2.6 billion in hypersonic related activities, 
including, weapon prototype demonstrations of the Navy's Intermediate 
Range Conventional Prompt Strike (IRCPS) weapon, the Army's Long Range 
Hypersonic Weapon (LRHW), and the Air Force's Hypersonic Conventional 
Strike Weapon (HCSW) and Air-launched Rapid Response Weapon (ARRW). 
Each of these programs is taking advantage of the middle tier of 
acquisition authorities that Congress has granted the Department to 
rapidly develop and field an early operational capability based on 
prototypes. The Navy and Air Force already have contracts in place for 
hypersonic weapon systems and the Army will before the end of the 
fiscal year. The Services are working well together and making rapid 
progress towards the fielding hypersonic warfighting capability. One 
example of collaboration is the development of a common missile by the 
Army and the Navy for the LRHW and IRCPS weapon system demonstration 
programs, and the Air Force's is leveraging much of the glide body 
design to develop an air-launched capability for HCSW.
                                 ______
                                 
             Question Submitted by Senator Susan M. Collins
                        iran influence in syria
    Question. Iran has worked to establish bases, factories, and 
weapons storage facilities throughout Syria, and are supplying 
significant support to its terrorist proxies in the region. What is our 
current strategy to limit Tehran's influence in Syria, including its 
formidable proxy forces, given the U.S. troop drawdown?
    Answer. The U.S. military in Syria focuses on the Defeat-ISIS 
campaign, as stated in our notification to the UN Security Council and 
per current AUMF authorities. This presence and these operations permit 
the U.S. to provide an ancillary effect to counter Iran throughout the 
region, indirectly monitor Iranian activity within Syria, and deter the 
Iranian objective of exacerbating the civil war in Syria.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
                           iran and venezuela
    Question. Has the Department of Defense completed any estimates 
regarding how much a war with Iran or Venezuela would cost in terms of 
dollars, equipment, and lives? If so, please provide that information 
to the committee.
    Has the Department of Defense completed an analysis of how military 
involvement in Iran or Venezuela would impact our force's readiness as 
it attempts to modernize and replace legacy equipment in the overall 
force into the 2020's? If so, please provide that information to the 
committee.
    How do you anticipate our near peer competitors would react to 
another open ended war with Iran or Venezuela? Based on DoD's analysis, 
would they benefit from the United States' spending more money and 
lives to fight another war in either country?
    Has the Department of Defense spoken with NATO and other allies 
about the possibility of a war with Iran or Venezuela? Would they 
support such an effort or do they oppose military involvement?
    Do either of you believe that the 2001 Authorization for use of 
military force gives the Department of Defense legal authority to 
engage in hostilities with Iran or Venezuela? Please provide any 
applicable legal advice on which you are basing your answer.
    Answer. The Department is postured to offer the President a broad 
range of military options to support policy end states in Venezuela and 
Iran. For Iran, we have initial estimates for the cost of deploying 
additional forces and equipment to the USCENTCOM AOR to support the 
Administration's Maximum Pressure Campaign.
    All contingency or crisis response operations have an impact on 
readiness. Very few missions allow force elements to maintain 
proficiency on all the mission essential tasks a unit is required to 
conduct. To date, the additional force posture in USCENTCOM and 
humanitarian support to USSOUTHCOM have not affected DoD's 
modernization efforts.
    I would defer to the Intelligence Community to characterize near-
peer reactions to a notional large-scale U.S. military intervention in 
Venezuela.
    The U.S. has consulted and coordinated with allies on current 
defensive measures taken in response to recent Iranian aggression.
    To date, the 2001 AUMF has not been interpreted to authorize the 
use of force against the governments of Iran or Venezuela.
                              hypersonics
    Question. To develop hypersonic technology and possible counters, 
inland tests will need to be conducted. Is DoD coordinating with White 
Sands Missile Range to conduct the needed testing? Can you update my 
office on Air Mobility Command's efforts to utilize hypersonic point to 
point travel? What are the plans to make this a reality? And have the 
Air Force and DoD begun the interagency efforts to conduct overland 
hypersonic tests?
    Answer. Currently there are no planned overland hypersonic weapons 
system tests. To accommodate future capacity demands and enable the 
potential for future tests to occur over land, the Department is 
considering additional flight test range options. As part of these 
options we are looking at overland corridors to include the potential 
for WSMR involvement. Furthermore, discussions between OSD and WSMR 
have happened to evaluate the potential for long range, over land 
flight testing of future hypersonic systems. With respect to Air 
Mobility Command's efforts to utilize hypersonic point-to-point travel 
the Joint Staff knows of no such effort.

                          SUBCOMMITTEE RECESS

    Senator Shelby. Subject to that, the Defense Subcommittee 
will reconvene in a closed session next Wednesday, May 15 at 10 
a.m., to receive testimony from the U.S. intelligence 
community.
    This committee is recessed. Thank you.
    [Whereupon, at 1:23 p.m., Wednesday, May 8, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]
</pre></body></html>
